                                 Office of Inspector General

      Budget and Administration                              Inspector General
           Human Resources                                        Deputy
       Information Technology                                Inspector General
                                                             Associate Deputy
                                                             Inspector General
                                                            for Strategic Issues
                                                                Chief of Staff




                          Office of Audit
                          and Evaluation




OIG Main Number                                                         OIG Hotline
Inspector General . . . . . . . . . . . . . . . . . . 202.482.4661      Telephone . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.2495
                                                                                                                                      or 800.424.5197
More Information
                                                                        TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
Visit www.oig.doc.gov to learn more about our activities,
                                                                                                                                         or 800.854.8407
view or download reports and testimony, and sign up for
e-mail alerts. E-mail comments to oigweb@oig.doc.gov.                   E-mail . . . . . . . . . . . . . . . . . . . . . . . . . . . . hotline@oig.doc.gov
  Office of Inspector General
Semiannual Report to Congress


         September 2010
                                                     CONTENTS
From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
       1. Continuing to Enhance the Department’s Ability to Defend
          Its Information Technology Systems and Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
       2. Effectively Managing the Development and Acquisition of
          NOAA’s Environmental Satellite Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
       3. Managing Acquisition and Contract Operations More Effectively to
          Obtain Quality Goods and Services at Reasonable Prices and on Schedule . . . . . . . . . . . . . . . . . . . . 4
       4. Enhancing Accountability and Transparency of the American Recovery and
          Reinvestment Act Program’s Key Technology and Construction Programs . . . . . . . . . . . . . . . . . . . . 4
       5. Improving USPTO’s Patent Processing Times, Reducing Its Pendency and
          Backlogs, and Mitigating Its Financial Vulnerabilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
       6. Effectively Balancing NOAA’s Goals of Protecting the Environment and
          Supporting the Fishing Industry . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
       7. Protecting Against Cost Overruns and Schedule Slippages on the
          Commerce Headquarters Renovation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
       8. Effectively Planning the 2020 Decennial . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

Work in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

American Recovery and Reinvestment Act Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

Agency Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
       Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
       Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
       Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
       National Institute of Standards and Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
       National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
       National Telecommunications and Information Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

Statistical Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

Secretarial and CIGIE Awards for Commerce OIG Teams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

Acronyms and Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48
                             FROM THE
                        INSPECTOR GENERAL
We are pleased to present the Department of                    the Secretary’s Gold Medal as well as the Council of
Commerce Office of Inspector General’s (OIG)                   the Inspectors General on Integrity and Efficiency’s
Semiannual Report to Congress for the 6 months end-            coveted Glenn/Roth Award for Exemplary Service.
ing September 30, 2010.
                                                               We also continued our oversight of NOAA’s fisheries
This report summarizes work we completed and ini-              enforcement. We released our final report on the
tiated during this semiannual period on a number of            broader issues involved in these programs and opera-
critical departmental activities. Over the past 6              tions, completed an assessment of NOAA’s Asset
months, our office issued 15 audit and evaluation              Forfeiture Fund, and looked into allegations of docu-
reports addressing programs overseen by the                    ment shredding that took place during our initial
Economic Development Administration, Economics                 review. We will continue to devote resources and
and Statistics Administration, National Institute of           attention to NOAA fisheries enforcement matters to
Standards and Technology, National Oceanic and                 ensure that this important program receives greater
Atmospheric Administration (NOAA), National                    independent oversight than it has in the past.
Telecommunications and Information Adminis-
tration, and the Department itself. Our investigative          Internally, OIG has focused on implementing our
activities during this semiannual period resulted in           Strategic Plan, which directs our energies to improv-
more than $1.3 million in fines and other financial            ing the programs and operations of the Department
recoveries.                                                    of Commerce through independent and objective
                                                               oversight. As part of this reform, we are constantly
We devoted significant resources to the 2010 Census            striving to create a high-performance and accounta-
and generated multiple reports and recommenda-                 bility-focused culture that will better serve our stake-
tions for corrective actions by the Census Bureau.             holders.
Our work included a comprehensive nationwide
review of Census field operations involving field vis-         We look forward to working with the Department
its by over 100 OIG staff to Census offices in every           and with Congress in the months ahead to meet the
state. In so doing, we collected data that enabled us          many challenges facing Commerce. We thank the
to conduct a continuous, national-level review of              Secretary, senior officials throughout the Department,
decennial census finances, schedule, and risk assess-          and members of Congress and their staffs for their
ment and mitigation activities. We conducted physi-            support of our work during this reporting period and
cal security penetration testing at decennial facilities       for their receptiveness to our recommendations for
that led to immediate and significant improvements             improving Commerce operations.
in physical security at these critical locations. Our
Complaint Intake Unit handled 632 Census com-
plaints, more than four times the number received
during the prior reporting period. Two of these–sub-
stantiated whistleblower allegations of census data
falsification–led to prompt corrective actions by
Census and were the focus of congressional testimo-
ny at a field hearing in Brooklyn, NY. For all of our          Todd J. Zinser
Census oversight work, we were honored to receive              Inspector General




                                                           1
                      MAJOR CHALLENGES
                     FOR THE DEPARTMENT
The Reports Consolidation Act of 2000 requires
inspectors general to identify the top management                     Top Management Challenges
challenges facing their departments. For FY 2011,
the Department of Commerce Office of Inspector                 1. Continuing to Enhance the Department’s
General (OIG) identified eight challenges that                    Ability to Defend Its Information Technology
require significant departmental attention.                       Systems and Information

1. Continuing to Enhance the                                   2. Effectively Managing the Development and
   Department’s Ability to Defend Its                             Acquisition of NOAA’s Environmental
   Information Technology Systems                                 Satellite Programs
   and Information                                             3. Managing Acquisition and Contract
                                                                  Operations More Effectively to Obtain
In the past year, the Department has taken steps
                                                                  Quality Goods and Services at Reasonable
toward improving the capabilities of the information
                                                                  Prices and on Schedule
technology (IT) security workforce and developed a
long-term IT security strategic plan that should               4. Enhancing Accountability and Transparency
enhance Commerce’s ability to identify vulnerabilities            of the American Recovery and Reinvestment
and detect malicious activities. However, we continue             Act Program’s Key Technology and
to find security weaknesses that undermine the                    Construction Programs
Department’s ability to defend its systems and infor-
mation. Our FY 2010 Federal Information Security               5. Improving USPTO’s Patent Processing Times,
Management Act (FISMA) audit identified four                      Reducing Its Pendency and Backlogs, and
Department-wide weaknesses: (1) high-risk vulnera-                Mitigating Its Financial Vulnerabilities
bilities in system components, which increase the risk
of system compromise; (2) deficiencies in the report-          6. Effectively Balancing NOAA’s Goals of
ing and tracking of security weaknesses, which impair             Protecting the Environment and Supporting
management oversight and reduce the likelihood of                 the Fishing Industry
their being corrected; (3) contingency plans had not
been tested, and alternate processing sites had not            7. Protecting Against Cost Overruns and
been arranged, placing systems’ ability to recover from           Schedule Slippages on the Commerce
disruptions in doubt; and (4) deficiencies in system              Headquarters Renovation
security plans and control assessments persist, which
diminish the overall level of information assurance.           8. Effectively Planning the 2020 Decennial

Since FY 2001, Commerce’s annual Performance and
Accountability Report has reported information                assess its information security program as a signifi-
security as a material weakness, at our recommenda-           cant deficiency instead of the material weakness as
tion, because of major deficiencies in the                    was identified by the Department in past years. Our
Department’s certification and accreditation (C&A)            recommendation is based on three factors. First, a
process. We recently recommended the Department               government-wide policy change has increased the


                                                          3
Major Challenges for the Department                                  September 2010—Semiannual Report to Congress



emphasis on continuous monitoring and lessened the              3. Managing Acquisition and Contract
emphasis on the C&A process. Second, the actions                   Operations More Effectively to Obtain
associated with the Department’s C&A process                       Quality Goods and Services at
improvement strategy have strengthened the security
                                                                   Reasonable Prices and on Schedule
posture of the Department. And third, our audit
findings indicate that IT security control weaknesses           With the Department spending approximately $3 bil-
are resulting from an insufficient continuous moni-             lion of its budget every year through contracts, effec-
toring process. Although the IT security strategic              tive acquisition management is fundamental to the
plan identifies continuous monitoring as a top prior-           Department’s ability to accomplish its mission. Our
ity for improvement, operating units should initiate            work continues to find weaknesses in the
improvements immediately since this plan is not                 Department’s contract planning, administration, and
scheduled for implementation until 2012 and is                  oversight. In addition, the Department and its operat-
dependent upon adequate funding.                                ing units must develop effective processes for per-
                                                                forming these functions for major system acquisitions.
2. Effectively Managing the Development                         Commerce must also strengthen its suspension and
   and Acquisition of NOAA’s                                    debarment program to effectively safeguard against
   Environmental Satellite Programs                             awards to parties that have engaged in improper activ-
                                                                ities; improve award-fee contracting processes to meet
The National Atmospheric and Oceanic                            acquisition outcomes; and do more to ensure the ade-
Administration (NOAA) is modernizing its environ-               quate size and skills of its acquisition workforce, espe-
mental monitoring capabilities, in part by spending             cially given its need to oversee more than a billion
nearly $20 billion on two critical satellite systems: the       dollars in Recovery Act funds. Additionally,
Joint Polar Satellite System (JPSS) and the                     Commerce’s executive leadership needs to ensure the
Geostationary Operational Environmental Satellite-              Office of Acquisition Management has the authority
R Series (GOES-R). JPSS’ predecessor program, the               needed to perform effectively. At the direction of the
National Polar-orbiting Operational Environmental               Secretary, the Department is conducting an acquisi-
Satellite System (NPOESS), and GOES-R have a his-               tion improvement study. This study should determine
tory of cost overruns, schedule delays, and reduced             the appropriate authorities needed by the Office of
performance capabilities. More recently, the transi-            Acquisition Management and how the acquisition
tion from NPOESS to JPSS involves significant chal-             function should be structured Department-wide to
lenges, including moving from the Department of                 achieve better acquisition outcomes.
the Air Force’s contract with Northrop Grumman to
NASA, that have the potential to both increase costs            4. Enhancing Accountability and
and delay launch schedules. Since the GOES-R pro-                  Transparency of the American Recovery
gram was re-baselined in 2007, as a result of signifi-
                                                                   and Reinvestment Act Program’s Key
cant cost growth and independent review
recommendations, it has remained within budget                     Technology and Construction Programs
and on time. However, as highlighted by recent inde-
                                                                The American Recovery and Reinvestment Act of
pendent reviews, both satellite systems will continue
                                                                2009 (Recovery Act) is an unprecedented effort to
to require close oversight to minimize further disrup-
                                                                promote economic activity, invest in long-term
tion to the programs and prevent any gaps in satellite
                                                                growth, and implement a level of transparency and
coverage. Such gaps could compromise the United
                                                                accountability that will allow the public to see how
States’ ability to forecast weather and monitor cli-
                                                                their tax dollars are being spent. The Department of
mate, which would have serious consequences for the
                                                                Commerce received $7.9 billion in Recovery Act
safety and security of the nation.
                                                                funds. Of that amount, approximately $6 billion
                                                                were obligated in the form of grants or contracts for
                                                                key technology and construction programs in four of
                                                                the Department’s operating units: Economic
                                                                Development Administration (EDA), National


                                                            4
September 2010—Semiannual Report to Congress                                    Major Challenges for the Department



Institute of Standards and Technology (NIST),                 To decrease the patent application backlog and pro-
NOAA, and National Telecommunications and                     cessing times, USPTO must modernize its existing
Information Administration (NTIA). As of                      patent IT infrastructure and systems, which are out-
September 30, 2010, the Department has spent $1.7             dated and unstable. Further, USPTO must recruit
billion (or 24 percent of the obligated funds), leaving       and retain a highly skilled patent examiner work-
significant spending yet to be completed. Of the              force. Finally, USPTO must ensure that its initia-
riskier programs, the largest is NTIA’s Broadband             tives for a more efficient review process succeed in
Technology Opportunities Program (BTOP), which                improving patent quality, and that patent fee collec-
awarded 233 grants totaling $3.9 billion for broad-           tions provide sufficient resources to support
band Internet access across the nation. There is con-         USPTO’s operations.
siderable uncertainty about how NTIA will
administer or monitor these grants because the                6. Effectively Balancing NOAA’s Goals of
agency has not received any funding to manage the                Protecting the Environment and
program beyond September 30, 2010. Additionally                  Supporting the Fishing Industry
NOAA, NIST, and EDA are overseeing a number of
development and construction activities.                      The United States has the largest marine territory of
                                                              any nation in the world, and NOAA is charged with
Effective management by the agencies is critical to           protecting, restoring, and managing the use of living
completing these projects on schedule and within              marine, coastal, and ocean resources. In the years
budget, and to making certain the public receives the         ahead, NOAA faces difficult challenges in promoting
intended benefits from the Recovery Act. In the year          the health of these resources while ensuring the
ahead, we will focus on how the four agencies man-            nation reaps the vital economic benefits derived from
age the contracts and grants awarded to ensure that           them, especially in the areas of fishery enforcement
the technology and construction programs are man-             and environmental restoration. Given the recent alle-
aged effectively. We are particularly interested in how       gations of excessive penalties and arbitrary actions by
the agencies monitor recipients’ adherence to grant or        its Office for Law Enforcement and Office of General
contract terms, proper payments or drawdowns of               Counsel for Enforcement and Litigation, NOAA is at
funds, required matching shares for grant programs,           a critical juncture. The Secretary and NOAA have
and adherence to Recovery Act requirements such as            taken positive steps to improve the enforcement pro-
the Buy America Act.                                          gram. Continued positive action is required to restore
                                                              the program’s reputation and soundness.
5. Improving USPTO’s Patent Processing
   Times, Reducing Its Pendency and                           As the lead agency for the Natural Resource Damage
   Backlogs, and Mitigating Its                               Assessment process, NOAA will also continue to
   Financial Vulnerabilities                                  assess what environmental resources have been
                                                              harmed as a result of the April 20, 2010, Deepwater
The U.S. Patent and Trademark Office (USPTO)                  Horizon oil spill. Because the spill has such a large
faces immense and complex challenges in addressing            scope, we anticipate NOAA will need to devote
patent pendency and application backlogs while                significant resources for an extended period of
improving patent quality and building a highly                time towards restoration in the Gulf of Mexico.
trained and stable workforce. Since 2000, patent pen-         As of September 2010, NOAA has dedicated
dency has increased from 25 months to over 35                 $131.4 million to the spill through reimbursable
months, and the backlog of unexamined applications            projects. Federal, state, and local communities will
has grown from approximately 308,000 to more than             continue to rely on NOAA to provide long-term
708,000. These large numbers of applications and              monitoring and accurate data so responders can react
long waiting periods for patent approval create a sig-        to the oil and its effects on our ecosystem.
nificant risk to innovation and economic competi-
tiveness, and ultimately the United States’ position as
a world leader in innovation.


                                                          5
Major Challenges for the Department                                September 2010—Semiannual Report to Congress



7. Protecting Against Cost Overruns and                       8. Effectively Planning the 2020 Decennial
   Schedule Slippages for the Commerce
   Headquarters Renovation                                    The apportioning of congressional representation
                                                              and redistricting, as well as the annual distribution
The Herbert C. Hoover Building (HCHB)—the                     of more than $400 billion of government funding,
Department of Commerce’s Washington, DC, head-                depends on decennial census data. The 2010 Census
quarters—is undergoing a comprehensive renova-                was an immense undertaking that cost approximate-
tion. The project, currently scheduled for completion         ly $13 billion and involved the contributions of
by 2021, has an estimated cost of $960 million. The           more than 784,000 temporary employees to accu-
General Services Administration (GSA) owns the                rately count the estimated 300 million or more peo-
building and is managing the renovation; however,             ple living in the United States.
since the Department and its operating units will be
                                                              Considering the current trends in population and cost
directly affected, OIG plans to conduct an ongoing
                                                              growth, the 2020 Census could be even more expen-
review of the construction activities and the decisions
                                                              sive, with a total price of more than $22 billion,
critical to the renovation’s success. Although the 13-
                                                              according to Bureau estimates, unless major changes
year renovation includes many phased activities, of
                                                              are made in how the census is conducted. Such cost
special interest are the consolidated server room and
                                                              growth is unsustainable, and Census must make fun-
increased perimeter security. These special areas are
                                                              damental changes to the design, implementation, and
time critical for completion so that the balance of the
                                                              management of the decennial census in order to
renovation is not affected. We will also oversee how
                                                              obtain a quality count for a reasonable cost. To be
Commerce is working with GSA and advocating for
                                                              effective, Census needs to leverage existing current
the operating units housed at HCHB with respect to
                                                              surveys, field operations, and data assets, as well as
space requirements, building services and improve-
                                                              develop, test, and improve technology continuously
ments, and employee safety.
                                                              throughout the coming decade. FY 2011 and FY
                                                              2012 are critical years in the planning of the 2020
                                                              Census and will set the course for how well this
                                                              constitutionally mandated responsibility is performed.




                                                          6
                          WORK IN PROGRESS
The following Office of Inspector General (OIG)                Administration, National Institute of Standards and
audits and evaluations were initiated or underway              Technology, National Oceanic and Atmospheric
during this reporting period:                                  Administration (NOAA), and NTIA to determine
                                                               whether these operating units have used risk assess-
                                                               ments and internal controls (such as expanded meas-
American Recovery and                                          ures to identify and to recover improper payments) to
Reinvestment Act Oversight                                     mitigate the potential for grant fraud, waste, error,
                                                               and abuse.
BTOP Post-Award Process
Review post-award processes for the Broadband                  Recovery Act Whistleblower Reprisal
Technology Opportunities Program (BTOP) as part                Investigation
of our continued oversight of this program. Assess the         Investigate an individual’s complaint filed with OIG
capabilities of the National Telecommunications and            in March 2010 alleging that his termination from
Information Administration’s (NTIA) BTOP award-                employment with a contractor for a Commerce
recipient monitoring systems; evaluate NTIA’s plan-            Department operating unit was a reprisal for disclos-
ning for post-award activities and the agency’s                ing suspected contract fraud involving Recovery Act
execution of post-award activities in response to the          funding. OIG is investigating the allegations under
first wave of BTOP awards; and determine whether               the act’s whistleblower provisions. Based on complex-
appropriate steps are being taken to establish a pro-          ities of the case, and in accordance with the act’s
gram office to perform essential post-award oversight          requirements, the complainant agreed to an exten-
and monitoring, including post-September 30, 2010,             sion of time beyond the 180 days allotted for comple-
monitoring.                                                    tion of the investigation.

Census’s Partnership Program and
Recovery Act                                                   Department-Wide
Review partnership program activities associated with
Recovery Act spending during the 2010 decennial.               Motor Pool Audit
Assess Census operation managers’ satisfaction with            Determine whether Commerce and select operating
the partnership program, communication between                 units are managing their motor pool operations in
partnership staff and operation managers, and the              compliance with federal regulations.
effectiveness of partnership assistants.
                                                               Information Security
Recovery Act Recipient Reporting                               Audit the Department’s information security pro-
Determine whether Commerce has implemented suf-                gram and practices to determine whether implement-
ficient internal controls to ensure that data for recip-       ed controls adequately protect the Department’s
ients of Recovery Act funds are reported completely,           systems and information, and whether continuous
accurately, and in a timely manner, and that any               monitoring is keeping authorizing officials sufficient-
material omissions or significant errors are identified        ly informed about the operational status and effec-
and corrected.                                                 tiveness of security controls.

Recovery Act Grant Fraud Detection                             FY 2010 Financial Statement Audits
Review $5 billion in Recovery Act grant funding                Determine whether the financial statements for the
authorized for the Economic Development                        Department, U.S. Patent and Trademark Office


                                                           7
Work in Progress                                                    September 2010—Semiannual Report to Congress



(USPTO), and the Census Bureau are fairly stated in            National Oceanic and
accordance with generally accepted accounting prin-
                                                               Atmospheric Administration
ciples. These audits are performed by an independent
public accounting firm under OIG oversight.                    Pacific States Marine Fisheries
                                                               Commission
                                                               Audit two NOAA cooperative agreements and three
Census Bureau
                                                               contract task orders awarded to the Commission. In
Decennial Response Integration System                          addition to performance, compliance, and cost-
                                                               incurred audits of the agreements and task orders, the
(DRIS) Contract Audit
Assess contract requirements, deliverables, labor costs,       comprehensive audit also examines 12 cost-reim-
and timelines for DRIS. Review the award fees paid to          bursable contracts awarded under the two coopera-
the contractor, the 2007 contract modification total-          tive agreements and 7 years of Commission indirect
ing $265 million, and any other contract changes               cost rates and related proposals.
made to accommodate Census’s decision to conduct a
                                                               Gulf Coast Oil Spill Cost Tracking
paper-based nonresponse follow-up operation.
                                                               Survey NOAA’s financial systems and processes relat-
                                                               ed to current and future actions to address the oil
Fifth Census Quarterly Report
                                                               spill. Determine whether NOAA has adequate finan-
to Congress
                                                               cial systems and processes in place to record and
Continue to report on the progress of the 2010
                                                               track costs associated with its efforts to contain and
Census with respect to cost, schedule, and risk, as
                                                               assess environmental impacts related to the Gulf
mandated by the explanatory statement accompany-
                                                               Coast oil spill, and to collect, monitor, and disburse
ing the Supplemental Appropriations Act of 2008
                                                               restitution funds associated with Gulf Coast spill
(P.L. 110-252).
                                                               cleanup activities.
Partner Support Program (PSP)
                                                               Environmental Satellite Programs
Purchase Audit
                                                               Audit the adequacy of NOAA’s Joint Polar Satellite
Evaluate whether Census employees responsible for
                                                               System (JPSS) development activities (e.g., ground
administering the PSP were adequately trained and
                                                               system software development, fixes, and testing)
whether regional Census employees followed proce-
                                                               intended to maintain continuity of climate and
dures related to review and approval of PSP purchas-
                                                               weather forecast data obtained from polar orbit.
es. Census purchased products and services to
                                                               Determine the completeness of technical approaches
promote awareness of the 2010 Census, especially
                                                               used in developing and testing the flight and ground
among traditionally hard-to-count groups.
                                                               project segments; assess the impacts of development
2010 Decennial Capstone Report                                 modifications (such as re-sequencing of environmen-
(includes Final Quarterly Report                               tal test activities) and risks to JPSS’ cost, schedule,
                                                               and technical performance; and determine the ade-
to Congress)
Analyze and report on the 2010 Census with respect             quacy of NOAA’s preparations for post-launch data
to cost, schedule, and risk, as mandated by the                production.
explanatory     statement    accompanying      the
Supplemental Appropriations Act of 2008 (P.L. 110-
252). Discuss strategies for planning a successful
2020 Census, building on lessons learned during
recent decennials.




                                                           8
September 2010—Semiannual Report to Congress                                                    Work in Progress



National Telecommunications and                             U.S. Patent and Trademark Office
Information Administration
                                                            Patent Budget Projections
Audits of Public Safety Interoperable                       Determine the effectiveness of USPTO’s process to
Communications (PSIC) Grants in                             project revenue and expenses for its patent opera-
Several States                                              tions. Determine whether this process enables
Audit PSIC grants awarded to California, Texas, and         USPTO to meet its expenses and achieve its mission
Massachusetts. Determine the progress these states          and strategic goals for Patents.
have made in acquiring and deploying interoperable
                                                            Patent Quality Assurance Process
communications with PSIC grant funds and
                                                            Determine the effectiveness of USPTO’s patent qual-
whether their use of the funds is meeting all federal
                                                            ity assurance process in ensuring that established
requirements.
                                                            standards of patent examination quality are met and
                                                            whether the process complies with applicable depart-
                                                            mental, bureau, and federal laws, regulations, poli-
                                                            cies, procedures, and guidelines.




                                                        9
        AMERICAN RECOVERY AND
      REINVESTMENT ACT OVERSIGHT

T
        he American Recovery and Reinvestment Act (Recovery Act), signed into law by President Barack
        Obama on February 17, 2009, has at least three immediate goals: create new jobs and save existing ones;
        spur economic activity and invest in long-term growth; and foster unprecedented levels of transparency
and accountability. To ensure that accountability requirements are being met, the inspectors general of
28 federal agencies distributing Recovery funds continually review their agencies’ management of these funds.

Five Department of Commerce operating units—the Census Bureau, Economic Development Administration
(EDA), National Institute of Standards and Technology (NIST), National Oceanic and Atmospheric
Administration (NOAA), and National Telecommunications and Information Administration (NTIA)—and
the Office of Inspector General received $7.9 billion under the act. As of September 30, 2010, the Department
had obligated approximately $6.8 billion and spent approximately $1.7 billion. OIG has been proactive in its
oversight of the Department’s Recovery Act programs and activities, including the operating units’
implementation of the act’s performance measurement requirements.



  Figure 1: Recovery Act Funding by                        NTIA Must Continue to Improve
  Commerce Operating Unit, February 2009                   Its Program Management and
                                                           Pre-Award Process for Its
  NTIA*                    $5.3 billion
                                                           Broadband Grants Program
  Census                   1 billion                       (ARR-19842-1)
  NOAA                     830 million                     The Broadband Technology Opportunities Program
  NIST                     610 million                     (BTOP) is the largest grant program that NTIA has
                                                           managed to date. We have been proactive in our over-
  EDA                      150 million                     sight of BTOP, providing guidance to NTIA on the
                                                           importance of establishing appropriate internal controls.
  OIG                      16 million
  Total                    $7.9 billion                    While at the time of our review NTIA had made signif-
                                                           icant strides in implementing BTOP—developing a
  * NTIA’s Broadband Technology Opportunities              program office, issuing its first Notice of Funds
  Program (BTOP) was originally funded at                  Availability, reviewing more than 1,800 submitted
  $4.7 billion, and the DTV converter box program          applications, and announcing its initial awards—it is
  at $650 million. Congress later rescinded                essential that NTIA apply the lessons it learned from the
  $302 million from BTOP and $240 million from             first funding round to promptly address any problems
  the converter box program.                               that may arise. As part of our oversight, we found that



                                                      11
American Recovery and Reinvestment Act Oversight                                        September 2010—Semiannual Report to Congress



Figure 2: Commerce Operating Units’ Recovery Act Spending as of September 30, 2010 (in millions)

                                    NOAA           32M
  Procurement, Acquisition, and Construction                    249M                                                     Total Disbursements
                                                                                                                         Total Obligations
                                      NOAA             119M
           Operations, Research, and Facilities                 231M

                                       NIST        27M
            Construction of Research Facilities                 360M

                                         NIST          50M
 Scientific and Technical Research and Services                 236M

                                    NTIA                        334M
                DTV Converter Box Program                       334M

                                     NTIA              93M
Broadband Technology Opportunities Program                                                                                          4.3 Billion

                                      Census                           966M
                                 2010 Census                           1 Billion

                                     EDA           39M
  Economic Development Assistance Program            150M

                                                  $0         $500   $1000    $1500       $2000   $2500   $3000   $3500   $4000   $4500

Data as reported on Recovery.commerce.gov. As required by OMB standards, interagency transfers of $553 million, a DTV rescission of
$240 million, and a rescission of $302 million in BTOP funds are not included and would impact obligation amounts.
Visit www.oig.doc.gov/recovery/ for more information about OIG Recovery Act activities.


                                                                                 ■   BTOP’s size and complexity have presented NTIA
       The Recovery Act and Broadband                                                with significant challenges. NTIA’s program
                                                                                     staffing levels appear to be insufficient to simulta-
 The Recovery Act gave $7.2 billion to NTIA and                                      neously perform the necessary first- and second-
 the Department of Agriculture’s Rural Utilities                                     round award activities. The office must rely heavily
 Service to expand broadband services in the                                         on a few key individuals and personnel from other
 United States.                                                                      agencies to carry out the program’s operations.

 Of the $7.2 billion to be awarded before                                        ■   NTIA’s inconsistent documentation of important
 September 30, 2010, $4.7 billion was provided to                                    information such as policies, procedures, staff roles,
 NTIA to establish BTOP, a competitive grant                                         and key management decisions increases the risk of
 program intended to provide funds for deploying                                     inefficiency and miscommunication.
 broadband infrastructure in unserved and under-
 served areas of the United States. The funds are                                ■   The first round of BTOP grant application process-
 also intended to enhance broadband capacity at                                      ing exposed several problems with the online grant
 public computer centers, improve access to                                          intake system, which affected efficiency and users’
 broadband services for public safety agencies, and                                  experiences.
 promote sustainable broadband adoption proj-
                                                                                 ■   A shortage of volunteer peer reviewers meant that
 ects. (In August 2010, $302 million was rescind-
 ed from NTIA.)                                                                      application review for the first round was delayed.
                                                                                     As NTIA manages the second-round process and
 The first round of grant awards was completed in                                    handles post-award activities for first-round grant
 April 2010; the second, in September 2010.                                          recipients, it must be careful to obtain enough
                                                                                     reviewers for the workload.


                                                                            12
September 2010—Semiannual Report to Congress                             American Recovery and Reinvestment Act Oversight



■   NTIA will need to closely monitor grantees during
    the post-award phase to ensure they are in compli-                        American Recovery and
    ance with the National Environmental Policy Act                    Reinvestment Act of 2009 (P.L. 111-5)
    (NEPA).                                                               and Performance Measurement
In January 2010, we presented to NTIA our observa-                                Requirements
tions and ways to improve internal controls, promote
                                                                     The Recovery Act and the Office of Management
transparency, and increase efficiency, many of which
                                                                     and Budget’s (OMB) implementation guidance
they have begun to implement. In the report issued
                                                                     require agencies to monitor the progress of
in April 2010, we recommended that NTIA
                                                                     Recovery Act programs to identify areas of, and
■   create a staffing plan that outlines the necessary               address concerns about, high risk or low perform-
    resources to manage BTOP, and makes provisions                   ance. OMB also requires agencies to include
    to adjust to the loss of key positions;                          accountability objectives as part of the risk-miti-
                                                                     gation process and to develop quantifiable per-
■   develop and implement policies and procedures                    formance measures that address the use of
    that articulate key roles, responsibilities, and                 Recovery Act funds to meet the act’s goals.
    requirements for documentation;

■   direct its in-house counsel to document any pro-
                                                                    While NIST and NOAA have created new systems or
    gram issues that arise and receive documented
                                                                    improved existing systems to keep track of indicators
    opinions from the Department of Commerce’s
                                                                    of progress—e.g., dollars spent, milestones met, jobs
    Office of General Counsel;
                                                                    created—they have not developed measures of overall
■   supplement the existing pool of reviewers to address            substantive outcomes, such as assessment of whether
    unforeseen delays or other impacts that could affect            specific program goals have been met or of the broad-
    the application review timeline; and                            er public benefits of significant programs funded by
                                                                    the Recovery Act.
■   continue to develop monitoring procedures to iden-
    tify, track, and assist recipients at risk of experienc-        We recommended that NOAA and NIST improve
    ing delays in completing post-award NEPA                        their performance metrics for the more significant
    requirements.                                                   Recovery Act programs, focusing on intermediate
                                                                    outcomes that assess the programs’ benefits. For
NIST and NOAA Monitor Their                                         example, performance metrics should track whether
                                                                    an investment has improved the body of knowledge
Recovery Act Programs, but                                          in a particular field, disseminated newly developed
Performance Metrics Need to                                         tools and models, supported a research or technolog-
Measure Outcomes (ARR-19881)                                        ical innovation, or made other advancements in sci-
                                                                    ence and technology for the public’s benefit.
We examined NIST’s $200 million Scientific and
Technical Research and Services (STRS) account and                  NOAA agreed with the findings and has already
NOAA’s $600 million Procurement, Acquisition, and                   begun to modify its Recovery Act performance met-
Construction account to determine whether (1) the                   rics to address our recommendation. NIST’s response
operating units are monitoring the progress of certain              reemphasized the challenges we discussed in the
programs funded by the Recovery Act; (2) NIST and                   report regarding measuring core science programs.
NOAA have mitigated risk or addressed schedule- or                  However, NIST agreed that some of its performance
cost-related concerns; and (3) the operating units’                 metrics for the STRS equipment program should be
performance metrics comply with Office of                           strengthened and that it would develop an appropri-
Management and Budget (OMB) requirements.                           ate set of intermediate measures.




                                                               13
American Recovery and Reinvestment Act Oversight                       September 2010—Semiannual Report to Congress



Review of Recovery Act Contracts                                  Recovery Act signage at the Department of
                                                                  Commerce. The five Commerce operating units
and Grants Workforce Staffing
                                                                  receiving stimulus funding are subject to Commerce-
and Qualifications at the                                         wide guidance for grant awards requiring that con-
Department of Commerce                                            struction projects funded by the Recovery Act display
(ARR-19900)                                                       signage featuring the Recovery Act logo. This guid-
                                                                  ance mirrors the Recovery Act guidance provided by
In May 2009, at the request of and in consultation                OMB in its General Guidelines for Emblem and Logo
with the Recovery Accountability and Transparency                 Applications issued March 20, 2009. With respect to
Board (Recovery Board), OIG led a government-                     Commerce contracts funded by the Recovery Act,
wide review of 29 OIGs to determine whether pro-                  similar Commerce-wide guidance does not exist.
grams that award Recovery Act contracts and grants                Except for a requirement for non-federal employers
have the proper level of workforce staffing, qualifica-           receiving stimulus dollars to post a whistleblower
tions, and training. The Recovery Board issued the                protection poster onsite, there is no statutory
report in March 2010.                                             requirement in the Recovery Act itself for the posting
                                                                  of signs.
We subsequently focused on recommendations appli-
cable to the Department of Commerce (Office of the                In addition to the Department’s guidance on grants,
Secretary, Census Bureau, EDA, NIST, NOAA, and                    agencies awarding stimulus funds are permitted to
NTIA). In our review, we found that the Commerce                  provide further instructions regarding the sign speci-
workforce is generally sufficient to administer                   fications. OIG detailed the varied signage require-
Recovery Act programs but noted impacts to the                    ments across the Commerce operating units as part of
oversight of non-Recovery Act workload. In addition,              its response to the congressional request.
almost all Commerce contracting personnel working
on the Recovery Act have met their certification and              The Commerce requirement for signage did not
training requirements.                                            begin with the Recovery Act. The Department’s
                                                                  Grants Manual instructs agencies that fund construc-
We recommended that Commerce operating units                      tion projects to require recipients to erect a sign at the
closely monitor the staffing of both Recovery Act and             project site indicating that the federal government is
non-Recovery Act work and make adjustments as                     participating in the project. Only when the major
necessary to ensure that all contracts and grants are             purpose of the award is construction is there a
properly awarded and monitored. We also recom-                    requirement for a sign. Therefore, not all Commerce
mended that the Department                                        Recovery Act projects included a requirement to post
                                                                  a sign. There are some exceptions to the signage
■   take steps to ensure that all contracting officers are        requirements, such as alteration of facilities (e.g.,
    in compliance with relevant certification require-            upgrading electrical systems) and projects in their
    ments;                                                        early stages (before environmental assessments are
                                                                  completed or prior to the arrival of building materi-
■   determine whether program managers working on                 als and equipment). Finally, our review found no
    major acquisitions are certified and close any certi-         instances in which an operating unit had relaxed the
    fication gap that may exist; and                              Commerce’s Recovery Act signage policy require-
■
                                                                  ments or the implementation of those requirements.
    establish its own requirements for the training of
    grants personnel in all of its operating units.

Federal Requirements for
Recovery Act Signage
In response to a congressional request to the Recovery
Board, OIG examined federal requirements for


                                                             14
                         DEPARTMENT-WIDE
                           MANAGEMENT

T
        he United States Department of Commerce creates the conditions for economic growth and oppor-
        tunity by promoting innovation, entrepreneurship, competitiveness, and stewardship. The
        Department has three stated strategic goals:

        Goal 1: Provide the information and tools to maximize U.S. competitiveness.

        Goal 2: Foster science and technological leadership by protecting intellectual property, enhancing
        technical standards, and advancing measurement science.

        Goal 3: Observe, protect, and manage Earth’s resources to promote environmental stewardship.

The Department has also established a Management Integration Goal that is equally important to all operat-
ing units: Achieve organizational and management excellence.


Review of Management of the                                 completed in October 2009, and Phase 2 is under-
                                                            way. Each future phase is planned to last approxi-
Herbert C. Hoover Building
                                                            mately 18 months, although as with any building
Renovation (OAE-19885)                                      renovation of this age, progress schedules are subject
                                                            to change due to unforeseen conditions and changing
In January 2008, the General Services                       requirements within the facility.
Administration (GSA) began an extensive 8-phase
modernization and renovation of the more than               Because the Department and its operating units are
1.8-million-gross-square foot Department of                 directly affected by the renovation, OIG plans to
Commerce headquarters. Scheduled for completion             conduct an ongoing review of the project. Our objec-
in 2021, the renovation of the Herbert C. Hoover            tive for this first evaluation was to gain an under-
Building (HCHB) will upgrade mechanical, electri-           standing of the HCHB renovation project and its
cal, and life-safety systems; increase usable space;        project management plan to determine whether the
improve energy and environmental efficiency; and            project was being managed effectively.
incorporate security improvements.
                                                            We found that the management teams—GSA’s
The renovation makes HCHB, which has undergone              Public Building Service; Commerce’s Office of
only limited upgrades since its completion in 1932,         Building Renovation (OBR); and Gilbane-Grunley
one of the final buildings in Washington, DC’s              Joint Venture (GGJV), the contractor for the renova-
Federal Triangle area to be modernized. GSA is man-         tion—had implemented reasonable operating proce-
aging the estimated $960 million contract to com-           dures to ensure adequate oversight of the initial
plete the renovation. Phase I was substantially             phases of the project. However, we did find two areas


                                                       15
Department-Wide Management                                           September 2010—Semiannual Report to Congress



that may affect the renovation’s progress: (1)                ■   strengthening the IT security workforce at the
Commerce’s OBR does not have a formal procedure                   Department of Commerce; and
in place for tracking and reconciling reimbursable
work authorizations (RWAs), and (2) concerns about            ■   oversight of NOAA’s GOES-R satellites and adher-
GSA’s calculation of Commerce’s rental rate still have            ence to accepted satellite acquisition practices.
not been resolved. As of September 30, 2010, the
Department had developed draft standard operating             With respect to implementation progress on the
procedures to address our concerns with the tracking          Census, a small core team at Census has begun early
and reconciliation of RWAs. Additionally the                  planning and is focused on establishing planning and
Department is working closely with GSA to address             program management processes to ensure a solid
concerns regarding the calculation of rental rates. We        foundation for designing the 2020 Census. For the
look forward to receiving the Department’s complet-           Department’s IT security workforce, the Department
ed audit action plan, containing specifics as to how          is finalizing a policy addressing IT certification
these issues will be resolved.                                requirements and development activities for new and
                                                              existing IT security employees. The Department is
The Department will need to continue its oversight            working on a comprehensive review of acquisition
of the renovation in order to minimize potential dis-         processes across the Department but has not provid-
ruptions to employees’ comfort, health, and produc-           ed a specific date for completion.
tivity. We are encouraged that the Department of
Commerce and GSA are taking actions to help ensure            Additional Indictment in
a smooth renovation undertaking of this magnitude.            Long-Running Telemarketing
Coordination of the construction project includes
specific components such as the historic integrity of
                                                              Fraud Case
the building, current information technology (IT)
                                                              Since 2003, OIG has been engaged in a multi-agency
and technology requirements, and increased physical
                                                              international investigation of a scheme in which a
security.
                                                              large cadre of overseas-based individuals conspired to
We will continue to monitor the progress of various           defraud Americans by identifying themselves as
projects critical to the success of the renovation            employees of the Commerce Department and other
efforts, such as the design and construction of the           federal agencies. The callers told victims in the
consolidated server room and enhancements to                  United States that they were winners in a national
perimeter security. Such projects are Commerce’s              lottery sanctioned by the Department and that they
largest monetary responsibilities during the early            had won sweepstakes prizes ranging in value from
phases of the renovation, and directly affect critical        $450,000 to more than $4 million.
stages of construction.
                                                              The callers used Voice Over Internet Protocol
                                                              (VOIP) technology to make it appear that their calls
Response to Congress Concerning
                                                              originated in the United States when in fact they
Priority OIG Recommendations                                  originated from overseas locations. Victims were then
Requiring Action and Progress                                 instructed to use commercial wire transfer services to
Toward Implementation                                         send payments of $1,500 to $4,500 to Costa Rica,
                                                              purportedly for insurance and customs fees that were
In response to a congressional request, OIG provided          required to retrieve their winnings. Many victims
information identifying what we consider to be our            were persuaded to send multiple payments to the
three most important recommendations that have yet            telemarketers—some individuals transferred more
to be implemented, along with our assessment of               than $200,000. Total identified losses to U.S. resi-
agency progress toward their implementation. These            dents exceed $30 million to date.
recommendations concern
                                                              In April 2010, a member of this conspiracy was
■   management and oversight of the 2010 Census;              indicted, subsequently pleading guilty on May 24,


                                                         16
September 2010—Semiannual Report to Congress                                            Department-Wide Management



2010, which brought the total number of convictions             investigation with that office and the FBI. As a result
in this case to 40. Sentencing is pending. Fines and            of the investigation, six companies have agreed to
restitution imposed on the conspirators to date have            plead guilty to violating the Sherman Antitrust Act
exceeded $200 million.                                          by conspiring to create and fix fees related to export
                                                                surcharges, currency adjustments, and peak season
Training Contractor Pays                                        surcharges. The fines incorporated into the plea
Multimillion Dollar Settlement                                  agreements, which are subject to court approval,
                                                                exceed $50 million. The case targeted a number of
On April 6, 2010, a major training contractor agreed            freight forwarder companies located in the United
to pay the United States $4.5 million to resolve alle-          States, Europe, and the Middle East. (Freight for-
gations that it violated the False Claims Act when it           warders manage the domestic and international deliv-
improperly invoiced federal agencies in advance for             ery of cargo for customers by receiving, packaging,
information technology training courses and kept                preparing, and warehousing cargo, arranging for
federal funds for training courses that were never              shipments through transportation providers such as
provided.                                                       air and surface carriers, preparing shipment docu-
                                                                mentation, and providing related ancillary services.)
The GSA contract with the company permitted it to
sell multi-course IT training packages known as                 Specifically, the freight forwarders involved in this
“vouchers” or “passports.” An investigation disclosed           case created and imposed fees on U.S. companies for
that the company used these prepaid training con-               collection and submission of cargo information to
tracts to routinely and systematically overcharge a             the U.S. Immigration and Customs Enforcement’s
number of federal government agencies, including                (ICE) Automated Manifest System for cargo ship-
the Department of Commerce. These agencies lost                 ments. ICE did not charge forwarders a fee to submit
any balance in their training funds account at the              the required information. Forwarders, however,
expiration of their contract. This violated the “invoic-        agreed to impose a charge for the services they pro-
es and payments” terms of the applicable contract,              vided in collecting and compiling information sub-
which states, “Invoices for classroom training shall be         mitted to ICE. They also created a currency
submitted by the contractor after [g]overnment com-             adjustment factor for international air shipments
pletion of the training course. Charges for classroom           from China to the U.S. Finally, they agreed to charge
training must be paid in arrears (31 U.S.C. 3324).”             a fixed peak season surcharge for goods shipped from
In addition, upon expiration of the training vouch-             Hong Kong.
ers, the company retained the federal funds it
received and did not provide a refund or credit to the          The investigation is ongoing and has already required
multiple federal agencies affected, including the               hundreds of hours of interviews and document analy-
Department of Commerce.                                         sis. In September 2010, 6 of the companies under
                                                                investigation agreed to plead guilty to 17 counts of
The Department of Commerce exposure on this case                various violations. Each company has agreed to coop-
was calculated at approximately $400,000. This set-             erate with the ongoing investigation.
tlement was the result of a joint investigation we con-
ducted with the OIGs from GSA and the                           Nonfederal Audit Activities
Department of Agriculture, as well as the
Department of Justice’s Civil Division.                         In addition to undergoing OIG-performed audits,
                                                                certain Commerce financial assistance recipients are
Guilty Pleas Announced in Major                                 periodically examined by state and local government
International Freight Forwarder                                 auditors and by independent public accountants.
Price-Fixing Case                                               OMB Circular A-133, Audits of States, Local
                                                                Governments, and Non-Profit Organizations, sets forth
In May 2009, the U.S. Department of Justice’s                   audit requirements for most of these audits. For-prof-
Antitrust Division requested our assistance in a joint          it organizations that receive Advanced Technology


                                                           17
Department-Wide Management                                          September 2010—Semiannual Report to Congress



Program (ATP) funds from NIST are audited in                   of these reports, the Department acts as an oversight
accordance with Government Auditing Standards and              agency and monitors the audited entity’s compliance
NIST Program-Specific Audit Guidelines for ATP                 with OMB Circular A-133 or NIST’s program-spe-
Cooperative Agreements, issued by the Department.              cific reporting requirements. The other 79 reports are
                                                               from entities for which other federal agencies have
We examined 138 audit reports during this semian-              oversight responsibility. We identified three reports
nual period to determine whether they contained                with findings related to the Department of
audit findings related to Commerce programs. For 59            Commerce.


  Report Category                             OMB A-133          ATP Program-Specific                Total
                                               Audits                  Audits

  Pending (April 1, 2010)                            36                      4                         40
  Received                                         156                      11                        16         7
  Examined                                         12      4                14                        138
  Pendin g (September 30, 2010)                      68                      1                         69


The following table shows a breakdown by operating
unit of approximately $808 million in Commerce
funds audited.


  Report Category                                                                                       Total

  Economic Development Administration                                                               $79,886,254
  International Trade Administration                                                                       262,890
  Minority Business Development Agency                                                                     242,500
  National Institute of Standards and Technology*                                                    16,801,016
  National Oceanic and Atmospheric Administration                                                   204,176,906
  National Telecommunications and Information Administration                                         10,600,915
  Multi-Agency                                                                                      495,580,989
   Total                                                                                          $807,551,470
* Includes $12,369,801 in ATP program-specific audits.


We identified a total of $1,411,634 in the federal
share of questioned costs. In most reports, the subject
programs were not considered major programs; thus,
the audits involved limited transaction and compli-
ance testing against laws, regulations, and grant terms
and conditions. The three reports with Commerce
findings are listed in Table 7-a.


                                                          18
              ECONOMIC DEVELOPMENT
                 ADMINISTRATION

T
          he Economic Development Administration was established by the Public Works and Economic
          Development Act of 1965, as amended (PWEDA), to generate new jobs, help retain existing jobs, and
          stimulate private investment in economically distressed regions of the United States. EDA continues
to fulfill this mission under the authority of PWEDA. Based on local and regional comprehensive economic
development strategies, EDA works in partnership with state and local governments, regional economic devel-
opment districts, public and private nonprofit organizations, and Indian tribes to help distressed communities
address problems associated with long-term economic deterioration and sudden and severe economic disloca-
tions, including recovery from the economic impact of natural disasters. EDA provides eligible recipients with
technical assistance, as well as grants for public works, planning, training and research, and economic adjust-
ment assistance.


Trade Task Group: Trade
Adjustment Assistance for Firms:                                     Trade Act of 1974 (P.L. 93-618)
Cooperative Agreements                                          The Trade Act of 1974, as amended, authorizes
(STL-19882)                                                     the President to negotiate international trade
                                                                agreements. Recognizing that a free trade policy
In response to allegations received by our office, we           can result in injuries to U.S. businesses through
conducted an audit to determine whether the Trade               market, sales, and job losses, the act also created
Task Group of Seattle was using program funds it                the Trade Adjustment Assistance for Firms
received in accordance with requirements under the              (TAAF) program to mitigate the negative effects
cooperative agreement it has with EDA. Our objec-               on affected manufacturing companies by provid-
tives were to determine whether (1) costs claimed               ing them with technical assistance. The American
were reasonable, allowable, and allocable to the feder-         Recovery and Reinvestment Act of 2009 included
al program; (2) the Trade Task Group established and            provisions to expand the TAAF program by
followed adequate internal controls in the bid process          allowing service industry firms the opportunity to
for consultants; and (3) companies receiving Trade              apply for assistance.
Adjustment Assistance for Firms (TAAF) funding
had been trade-injured due to foreign competition.
                                                               $5,211,802 in project costs from March 2005
From March 2005 to February 2010, EDA awarded                  through November 30, 2009.
$5,824,514 in TAAF cooperative agreements to the
Trade Task Group as part of its efforts to strengthen          Our audit found that the Trade Task Group general-
the competitiveness of U.S. companies that have                ly complied with TAAF grant requirements; however,
been adversely affected by imported goods and serv-            the group’s financial management system did not
ices. The Trade Task Group claimed a total of                  meet the minimum standards required by uniform


                                                          19
Economic Development Administration                                 September 2010—Semiannual Report to Congress



administrative requirements. This deficiency resulted            were carried over and whether any funds should be
in $41,195 in costs that were unallowable, unsup-                disallowed and recovered;
ported, or unreasonable in accordance with Office of
                                                             ■   require compliance with minimum federal financial
Management and Budget cost principles.
                                                                 management standards; and
We made the following recommendations to the
                                                             ■   provide training and guidance to the entities receiv-
director of the TAAF program:
                                                                 ing TAAF cooperative agreements to clarify
■   disallow and recover the $41,195 in questioned               records-retention requirements.
    costs;

■   work with the Trade Task Group to determine the
    specific cooperative agreements from which funds




                                                        20
           ECONOMICS AND STATISTICS
               ADMINISTRATION

T
       he Economics and Statistics Administration analyzes economic activity, formulates policy options,
       and produces a major share of U.S. government economic and demographic statistics. The chief econ-
       omist monitors and analyzes economic developments and directs studies that have a bearing on the for-
mulation of economic policy. ESA has two principal organizational units:

Census Bureau is the country’s preeminent statistical collection and dissemination agency. The bureau pub-
lishes a wide variety of statistical data about the nation’s people and economy, conducting approximately 200
annual surveys, in addition to the decennial census of the U.S. population and the quinquennial census of
industry.

Bureau of Economic Analysis prepares, develops, and interprets national income and product accounts (sum-
marized by the gross domestic product), as well as aggregate measures of international, regional, and state eco-
nomic activity.


                                                             2010 Census: Quarterly Report to
        Supplemental Appropriations
                                                             Congress, May 2010
         Act of 2008 (P.L. 110-252)
                                                             (OIG-19791-4)
           and the 2010 Census
                                                             During this reporting period, which covers 2010
 The Supplemental Appropriations Act of 2008
                                                             Census activities from January through March 2010,
 gave the Census Bureau an additional $210 mil-
                                                             we evaluated the Census Bureau’s information sys-
 lion to help cover spiraling 2010 decennial costs
                                                             tems, including preparations for implementing its
 stemming from the bureau’s problematic efforts
                                                             paper-based operations control system (PBOCS) for
 to automate major field operations, major flaws
                                                             the largest field operation; observed several early field
 in its cost-estimating methods, and other issues.
                                                             operations; and reviewed the bureau’s risk manage-
 The act’s explanatory statement required the
                                                             ment procedures and physical security at several
 bureau to submit to Congress a detailed plan and
                                                             Census locations. We found the following:
 timeline of decennial milestones and expendi-
 tures, as well as a quantitative assessment of asso-        ■   Information Technology Systems. PBOCS posed the
 ciated program risks, within 30 days. The                       greatest risk to the success of Nonresponse Follow-
 explanatory statement also directed OIG to pro-                 up (NRFU), the largest and most expensive decen-
 vide quarterly reports on the bureau’s progress                 nial census operation. The system’s performance
 against this plan.                                              was still unstable, and its ability to support NRFU’s
                                                                 volume was questionable. Census staff report fre-
                                                                 quent outages and reliability problems with


                                                        21
Economics and Statistics Administration                                 September 2010—Semiannual Report to Congress



    PBOCS, and the increased need for monitoring                 some locations. But we also discovered some signifi-
    workarounds to compensate for the system’s inade-            cant vulnerabilities at other sites. We presented our
    quacies would be a substantial challenge for                 findings to the Department’s Office of Security and
    Census. While the Decennial Applicant, Personnel,            Census, which informed us that they have improved
    and Payroll System’s performance appears to have             security at these facilities.
    improved with the addition of a hardware upgrade,
    the system had experienced increased performance             Our report did not provide recommendations.
    problems during early operations.                            Instead, we forwarded the Census Bureau a separate
                                                                 document that includes the following recommenda-
■   Enumeration Difficulties. During our many field vis-         tions:
    its, we consistently found Census enumerators had
                                                                 ■   Census should ensure clerical workarounds are
    difficulties with their assignments due to inaccu-
    rate, incomplete, or otherwise unusable maps. Also,              being performed properly by having Census office
    we found instances where overstaffing, inefficient               managers, regional Census centers, and Census
    coordination, inconsistent adherence to proce-                   headquarters increase manual and automated
    dures, and problems with information provided by                 checks of workaround procedures as well as ques-
    partnership specialists hindered several field opera-            tionnaire control and tracking.
    tions. The bureau’s current “verbatim” training
                                                                 ■   Census should also take larger samples in already
    method, wherein recently trained crew leaders read
    to new employees word for word from a training                   established quality-control procedures.
    manual on how to conduct a census operation, did             ■   Census 2020 planning should include a thorough
    not always provide employees with the necessary
                                                                     review of the decennial training process.
    information to accomplish the job. Finally, the
    public may not have been clearly informed about              ■   For Census 2020, the bureau should better com-
    Census’s different collection methods. For example,              municate the processes of its various enumeration
    based on their address type, some members of the                 activities to the public.
    public did not receive their census forms when
    others did.                                                  ■   The Census Bureau needs to improve the trans-
                                                                     parency of its budget process, especially the presen-
■   Budget and Costs. Census spending during this                    tation of surplus (or elimination of the surplus) as
    quarter was under budget; however, with NRFU                     shown in its financial management reports.
    commencing, costs were expected to rise. The
    bureau expected to meet its requirement to spend             Early Observations Indicate That
    all Recovery Act funding by the end of FY 2010.
                                                                 Some Nonresponse Follow-up
    While Census releases a financial management
    report monthly, some of the report’s information is          Procedures Are Not Being
    not transparent.                                             Followed and Others Are Lacking
                                                                 (OAE-19893-01)
■    Risk Management and Security. Census’s Risk
    Review Board identified and was tracking 24 pro-             To complete NRFU, Census operated 494 local
    gram-level risks. The Board continued to meet                Census offices (LCOs) nationwide and hired over
    monthly to review each risk, and was working to              600,000 temporary enumerators to determine the
    finalize and implement contingency plans for the             status of households that received questionnaires in
    risks that need them.                                        March 2010 but did not mail them back. Between
                                                                 April 23 and May 14, 2010, OIG conducted initial
In March, OIG staff tested the physical security at
                                                                 fieldwork, which was scheduled to end July 27, 2010.
the three national data-capture centers through
                                                                 OIG staff visited and conducted office interviews at
which completed census forms are processed. As dis-
                                                                 22 LCOs and observed 115 enumerators conducting
cussed in greater detail on page 24, our tests disclosed
                                                                 480 enumerations.
minor issues, and we suggested improvements at


                                                            22
September 2010—Semiannual Report to Congress                                      Economics and Statistics Administration



To allow Census to take timely action, we communi-             ■   Provide a consistent set of instructions for correctly
cated the information in this report to bureau offi-               completing the Notice of Visit form, including how
cials on May 21. Based on our observations of field                to fill out the enumerator-use-only portion and
procedures, we identified six areas of concern:                    telephone number. In addition, provide guidance
                                                                   for handling remaining update/leave question-
■   Procedures for asking race and ethnicity questions             naires.
    were not being followed.
                                                               ■   Take steps to ensure that military installations are
■   Completed enumeration questionnaires were not                  cooperating with the census.
    being tracked.
                                                               Respondent Data Safeguards in
■   Use of public database information raised Title 13
    confidentiality issues and could have led to over-         the Decennial Response
    reliance on “proxy” information.                           Integration System (OAE-19888)

■   Incorrect information was entered on Notice of             As part of our oversight of the 2010 decennial census,
    Visit forms.                                               we evaluated whether required information technolo-
                                                               gy (IT) security controls meant to serve as safeguards
■   Update/Leave questionnaires were inconsistently            over electronic respondent data in the Decennial
    handled.                                                   Response Integration System (DRIS) were effectively
                                                               meeting data security requirements. DRIS is a con-
■   Enumerators were unable to obtain complete                 tractor-operated system that supported the 2010
    responses on one military base.                            decennial census by converting paper-based respons-
                                                               es into electronic form and transmitting the data,
We also made five recommendations to help ensure
                                                               encrypted, to Census for further processing. It also
an accurate count and contain costs. Although the
                                                               provided telephone questionnaire assistance through
bureau responded rapidly to most of the recommen-
                                                               interactive voice response and call center staff to help
dations below, the impact of its corrective actions has
                                                               callers complete census forms. Further, DRIS fol-
been limited because less than half of the NRFU
                                                               lowed up with respondents where there was an indi-
workload remained.
                                                               cation that there was someone missing from the
We recommended that Census do the following:                   household or someone was counted at another place
                                                               to ensure persons were counted once and only once.
■   Reiterate the enumeration procedures and the
    importance of ensuring that the respondent under-          We identified vulnerabilities in DRIS security con-
    stands and answers the race and Hispanic-origin            trols that required corrections in order to ensure the
    questions.                                                 system adequately safeguarded respondent data.
                                                               However, several factors existed that significantly
■   Establish and implement a standard process for             mitigated the risk of a security breach: the system was
    documenting and tracking completed and returned            not accessible from the Internet, and user interfaces
    enumeration questionnaires to the LCO.                     limited access to respondent data. We also identified
                                                               a weakness in the system’s definitions for secure con-
■   Take action to ensure that Census information is           figurations that suggests the need for increased man-
    properly protected. For enumerators with a high            agement attention to future contractor systems.
    number of questionnaires that showed occupied
    housing units but who went straight to proxies for         We recommended that, for future contractor systems,
    information, consider taking additional steps to           the Census Bureau ensure that configuration settings
    monitor the quality of their work. Such actions            for IT products be defined, documented, and imple-
    could include adding the questionnaires to the re-         mented in accordance with Department policy. We
    interview or coverage follow-up operations.                made no recommendation with respect to system vul-
                                                               nerabilities because the system has concluded opera-



                                                          23
Economics and Statistics Administration                                September 2010—Semiannual Report to Congress



tions and was in the process of being decommis-                  the results transmitted for further processing.
sioned. Further, Census indicated, in response to our            Security breaches at these facilities could cause
draft report, that all but one of the vulnerabilities we         unwarranted delays in the census, as well as compro-
identified had been remediated (the remediation                  mise the personal information of millions of
began shortly after our initial fieldwork in March               Americans. In order to help ensure the safe, timely,
2010), and that DRIS completed data capture and                  and uninterrupted conduct of the 2010 Census, we
telephone operations with no reported security                   conducted a program of physical security penetration
breaches.                                                        testing at these facilities just before the start of decen-
                                                                 nial operations, with results reported to Census and
Review of Leases of Maryland                                     other stakeholders between April and July 2010.
Local Census Offices
                                                                 A multidisciplinary team led by our Office of
In response to a congressional request, OIG exam-                Investigations, but drawing from staff across OIG,
ined the leases of nine LCOs in the state of                     was assembled to conduct this activity. The testing
Maryland. We found that overall the Census Bureau                was scheduled for a time frame that would allow the
and General Services Administration (GSA) worked                 Department to initiate corrective action before mail
together and appeared to follow their established pro-           responses were returned to the centers. We used a sce-
cedures to search, solicit, and acquire office space in          nario-based testing program in which role players
the time allowed per the bureau’s office deployment              from OIG attempted to access each facility in ways
schedule. However, we suggested that Census and                  that would identify gaps and deficiencies in physical
GSA address the underlying issues—such as short                  security for appropriate remediation. We coordinated
lease periods, time constraints, and unique space                with the Department’s Office of Security and with
requirements that limited the number of bidders dur-             Census Bureau officials, both in preparation for and
ing this decennial census—to mitigate potential chal-            during the testing, to ensure that the testing could be
lenges in acquiring office space for the 2020 Census.            conducted in a safe manner for all participants. This
                                                                 liaison also ensured that testing was conducted with
Specifically, we found that the Census Bureau worked             minimal disruption to the production operations of
with GSA to search for and assess potential LCO sites.           the facilities. Finally, it allowed Office of Security
In Maryland, GSA’s solicitations to prospective lessors          managers to be present to see firsthand the issues that
generated few bids within the areas delineated by the            our testing disclosed, and thus facilitated the imme-
Census Bureau for LCOs. The lack of prospective                  diate correction of identified vulnerabilities where
lessors, coupled with Census’s tight deployment                  possible.
schedule, meant that there were few choices for LCO
sites and insufficient time to solicit additional bids.          Our testing program disclosed minor issues and sug-
The problems in receiving an adequate number of                  gested refinements in training and procedures at
bids led, in part, to the location of two LCOs in                some locations. At other locations, we discovered and
Baltimore approximately one-half mile apart. Since               brought to light significant vulnerabilities in need of
our oversight is limited to the Department of                    prompt correction, which might not otherwise have
Commerce, we did not assess GSA’s criteria and                   been detected by Census or the Department. At all
process for selecting the most cost-effective properties.        tested facilities, we conducted immediate debriefings
                                                                 with Census and security management personnel,
Security Tested at Critical                                      and made recommendations as to security needs
                                                                 highlighted by our testing. This was followed up by
Decennial Facilities
                                                                 formal and detailed reporting to Census and the
All census questionnaires mailed to U.S. residents               Department. The Census Bureau and the Office of
during the course of a decennial census are returned             Security implemented significant improvements in
by mail to one of three national data-capture centers            security at these facilities as a result of this program.
located around the country. At these centers, the
completed forms are converted to digital images and


                                                            24
September 2010—Semiannual Report to Congress                                   Economics and Statistics Administration



OIG Anticipates and Processes                                 OIG Cooperates with Census to
Significant Increase in                                       Address Data Falsification
Census Complaints During
                                                              In June 2010, a series of complaints was received
Reporting Period
                                                              alleging that two Brooklyn, NY, Census supervisors
About 9,400 key operations and activities comprised           were falsifying enumerator questionnaires in order to
the Census 2010 decennial program. With such com-             complete the census within assigned time deadlines.
plex, time-sensitive operations, it was vitally impor-        The issue was promptly referred to Census manage-
tant that Census operate efficiently and within               ment, which acted swiftly to remove the individuals
budget. In order to provide effective oversight of            in question. Given the seriousness of this matter and
these activities, we prepared for an increase in              the potential for interference with the accuracy of the
Census-related complaints of fraud, waste, and abuse.         census count, OIG conducted an investigation to
During the reporting period of this semiannual                determine whether violations of law sufficient for
report, we increased the number of staff assigned to          criminal prosecution had occurred. While the inves-
our Complaint Intake Unit to receive and evaluate             tigation substantiated the original allegations and
such complaints from Census employees, private cit-           brought to light significant management issues with-
izens, and special interest groups. As expected, given        in that Census office, the matter was declined for
the increased deployment of Census field staff, the           criminal prosecution in August 2010.
volume of complaints received increased dramatical-
ly. Our Complaint Intake Unit received a total of 632         Congressional Testimony
Census complaints, more than four times the 140
Census-related complaints received during the prior           During the reporting period, the Inspector General
reporting period. By contrast, from April 1, 2009, to         testified on whistleblower allegations before the
September 30, 2009, the Complaint Intake Unit                 House Committee on Oversight and Government
received a total of 81 complaints covering all operat-        Reform at a field hearing in Brooklyn, NY, on July 19,
ing units within the Department.                              2010. His statement is available at www.oig.doc.gov.




                                                         25
          NATIONAL INSTITUTE OF
       STANDARDS AND TECHNOLOGY

T
       he National Institute of Standards and Technology promotes U.S. innovation and industrial com-
       petitiveness by advancing measurement science, standards, and technology in ways that enhance eco-
       nomic security and improve quality of life. NIST manages four programs: the Technology Innovation
Program, the Manufacturing Extension Partnership program, the Baldrige National Quality Program, and
NIST Research Laboratories.


California Manufacturing
                                                                        Manufacturing Extension
Technology Consulting MEP                                              Partnership (MEP) Program
Award No. 70NANB5H1181                                                     (15 U.S.C. § 278k)
(DEN-18572)
                                                               Congress established the MEP program in 1988
In September 2005, NIST awarded an MEP cooper-                 to enhance productivity and technological per-
ative agreement to California Manufacturing                    formance in United States manufacturing
Technology Consulting (CMTC) to continue operat-               through the transfer of manufacturing technology
ing an existing MEP center. The award funded the               and techniques to manufacturing companies
period of July 1, 2005, through December 15, 2005,             throughout the United States.
and was later extended through June 30, 2007. Total            Operated by NIST, the program provides federal
estimated project costs for the 24-month award peri-           funding to 60 nonprofit organizations (at least
od were $59,946,418.                                           one in every state) to operate MEP centers that
                                                               offer an array of services to business and industry
In April 2007, we initiated an audit of the agreement
                                                               clients. The funding is made available through
to determine whether the recipient complied with
                                                               cooperative agreements that require nonfederal
award terms and conditions and NIST operating
                                                               matching funds from state or regional partners to
guidelines for MEP centers. The audit covered the
                                                               support center operations.
period July 1, 2005, through March 31, 2007, dur-
ing which time the recipient claimed project costs of
$46,070,804 and received federal reimbursements               that were reasonable, allocable, and allowable in accor-
totaling $15,355,400. We examined the costs                   dance with applicable federal cost principles, coopera-
CMTC claimed to have incurred, as well as the cost            tive agreement terms and conditions, and NIST policy,
claims of one subrecipient, Cerritos College, and five        including the MEP Operating Plan Guidelines.
third-party in-kind contributors.
                                                              In our opinion, CMTC’s claims included unallow-
The objective of this audit was to determine whether          able costs. Our audit questioned $11,384,182
CMTC reported MEP costs to NIST, including costs              in costs claimed by CMTC and subrecipient
incurred by CMTC’s subrecipient, Cerritos College,            Cerritos College:


                                                         27
National Institute of Standards and Technology                       September 2010—Semiannual Report to Congress



■   We questioned $4,800,000 claimed for Cerritos                 services to CMTC; rather, they represented costs
    College, for which the college could not document             incurred by the third-party organizations in the
    actual costs incurred under its subaward. Instead,            course of their regular activities. Also, none of the
    the college based its claim on estimates of the costs         claims met the minimum requirements for in-kind
    incurred by its eligible programs. This practice vio-         contributions specified in the terms and conditions
    lated the terms of the cooperative agreement                  of CMTC’s cooperative agreement. Furthermore,
    between CMTC and NIST.                                        portions of the claims were related to activities that
                                                                  occurred prior to the MEP award period.
■   We also questioned $6,584,182 in claimed in-kind
    contributions from five outside organizations for            We recommended the chief of NIST’s Grants
    which CMTC could not provide evidence that the               and Agreement Management Division disallow
    contributions met minimum MEP requirements.                  $11,384,182 in questioned costs and recover
    None of the claims were for donations of goods and           $3,794,349 in excess federal funds.




                                                            28
        NATIONAL OCEANIC AND
     ATMOSPHERIC ADMINISTRATION

T
        he National Oceanic and Atmospheric Administration mission is to understand and predict changes
        in Earth’s environment and conserve and to manage coastal and marine resources to meet our nation’s
        economic, social, and environmental needs. NOAA does this through six line offices:

National Weather Service reports the weather of the United States and provides weather forecasts and warn-
ings to the general public.

National Ocean Service provides products, services, and information to promote safe navigation, support
coastal communities, sustain marine ecosystems, and mitigate coastal hazards.

National Marine Fisheries Service conducts a program of management, research, and services related to the
protection and rational use of living marine resources.

National Environmental Satellite, Data, and Information Service observes the environment by operating a
national satellite system.

Office of Oceanic and Atmospheric Research conducts research related to the oceans and Great Lakes, the
lower and upper atmosphere, space environment, and the Earth.

Office of Program Planning and Integration develops and coordinates NOAA’s strategic plan, supports
organization-wide planning activities, guides managers and employees on program and performance manage-
ment, and integrates policy analysis with decisionmaking.


Review of NOAA’s MOC-P Lease                                  In response to a congressional request, we reviewed
                                                              the events, decisions, and processes that culminated
Decision (OAE-19897)
                                                              in the decision to award the 20-year operating lease
NOAA operates a wide assortment of hydrographic               for MOC-P to Oregon’s Port of Newport. Our review
survey, oceanographic research, and fisheries research        addressed the MOC-P lease acquisition specifically
vessels. These vessels are operated by its Office of          and NOAA’s facilities acquisition management sys-
Marine and Aviation Operations. Ships located in the          tems more generally. Based on our review, we were
Pacific are managed by the Marine Operations                  unable to provide assurance that NOAA’s award of
Center-Pacific (MOC-P), currently located in                  the lease to the Port of Newport provided the most
Seattle. Ships located in the Atlantic are managed by         cost-effective solution for MOC-P, or more generally
the Marine Operations Center, Atlantic (MOC-A) in             for the government. The principal reasons for this
Norfolk, VA.                                                  conclusion center around two issues: NOAA limited




                                                         29
National Oceanic and Atmospheric Administration                     September 2010—Semiannual Report to Congress



its options based on a preference for a consolidated           peer reviewed. According to the peer reviews we
facility without a documented analysis, and it did not,        examined, the resulting dataset improves upon the
in our view, adequately consider the use of existing           algorithms in the prior Version 1 data.
federal facilities. NOAA’s decisions in these two areas
took place well before the agency initiated the com-           The respondents to our inquiries about the use of and
petitive lease acquisition process. There were errors          adjustments to the USHCN data generally expressed
and weaknesses in NOAA’s competitive lease acquisi-            confidence in the Version 2 dataset. Although experts
tion source selection; however, the outcome of the             from the three professional organizations we contact-
competition (i.e., the award to the Port of Newport)           ed had no official position on the efficacy of the
is unlikely to have changed in the absence of the              adjustments, two of the experts stated that in their
weaknesses and errors in the source selection process.         professional view, the USHCN Version 2 dataset has
                                                               value, with one expert saying it is the best dataset for
Since OIG does not have a decision-making role in              detecting climate change and trends. All of the
the Department’s real property acquisition process,            experts thought that an improved, modernized cli-
our report was advisory. We intend to follow up to             mate observing system is necessary to eliminate the
determine what, if any, action is taken as a result of         need for data adjustments.
our review. Based in part on concerns surrounding
the MOC-P lease acquisition, the Secretary of                  NOAA recognizes the need for a modernized net-
Commerce subsequently directed a comprehensive                 work to enhance its ability to collect and report
review of the acquisition process across the                   regional climate data and is currently working to
Department.                                                    implement a modernized USHCN (USHCN-M).
                                                               The new network is planned to initially consist of
Review of NOAA’s Efforts to                                    141 pilot stations, with the goal of implementing a
                                                               national network of approximately 1,000 sites.
Modernize U.S. Historical
                                                               NOAA estimates that full implementation and oper-
Climatology Network (STL-19846)                                ation of a modernized network will cost about $100
                                                               million between FY 2010 and FY 2020. While
In response to a congressional request, OIG exam-
                                                               NOAA expects USHCN-M to improve its ability to
ined NOAA’s efforts to modernize the United States
                                                               collect and transmit regional climate data, the agency
Historical Climatology Network (USHCN) and the
                                                               is uncertain whether it will receive enough funding to
steps NOAA has taken to address deficiencies in the
                                                               fully implement and maintain the network.
data generated by the network. Established in 1987,
USHCN provides temperature and precipitation
                                                               Review of NOAA Fisheries
data for analyzing long-term climate variability at
national and regional levels. The development of the           Enforcement Asset Forfeiture Fund
USHCN dataset is a joint project of the Global                 (OIG-19887-1)
Change Research Program of the U.S. Department of
Energy and NOAA’s National Climatic Data                       Among the findings of our January 2010 report,
Center. NOAA’s National Weather Service is respon-             Review of NOAA Fisheries Enforcement Programs and
sible for operating and maintaining the stations with-         Operations (OIG-19887), we noted that “[f ]ishermen
in the network.                                                and other industry sources expressed concern to us that
                                                               NOAA’s fines are excessive, constituting a form of
NOAA acknowledges that there are problems with                 bounty, because NOAA is able to retain the proceeds
the USHCN data due to biases from (1) undocu-                  from its enforcement cases.” NOAA advised us that
mented changes such as for stations that have been             they maintained what was referred to as an Asset
replaced, moved, or removed over the years; (2) poor           Forfeiture Fund (AFF) comprising such proceeds, with
siting; or (3) instrument changes. The agency has              an agency-reported balance of $8.4 million as of
taken steps to improve data quality by implementing            December 31, 2009. Because the AFF account has
enhanced quality control steps and algorithms                  weak internal controls, we could not readily determine
(referred to as USHCN Version 2) and having them               how NOAA has been utilizing these funds.


                                                          30
September 2010—Semiannual Report to Congress                             National Oceanic and Atmospheric Administration



                                                                 ■   Forfeiture funds were used for any travel by OLE
       OIG Review of NOAA Fisheries                                  and GCEL broadly related to enforcement activi-
    Enforcement Programs and Operations                              ties, with little or no policy guidance provided for
          Yields Additional Findings                                 the use of such funds for such purposes. OLE and
                                                                     GCEL charged amounts to the AFF for interna-
    In our March 2010 Semiannual Report to                           tional travel despite only a small percentage of that
    Congress, we reported on Review of NOAA                          travel being directly related to specific investiga-
    Fisheries Enforcement Programs and Operations                    tions or enforcement proceedings.
    (OIG-19887), a major, multidisciplinary assess-
                                                                 ■   Forfeiture fund expenditures were not administered
    ment that we conducted at the request of the
    NOAA Administrator and with the interest of                      consistently across the agency. The lack of a stan-
    numerous members of Congress. We extensively                     dardized nationwide policy hampered accountabil-
    reviewed the policies, practices, and operations                 ity. Some offices spent large sums of forfeited funds
    of NOAA’s Office of Law Enforcement (OLE)                        with minimal or nonexistent approval procedures
    and NOAA’s Office of General Counsel for                         or supporting documents.
    Enforcement and Litigation (GCEL).
                                                                 In light of these findings, OIG recommended that
    In the course of that review, we reported signifi-           NOAA take several steps to improve management
    cant findings and recommended numerous actions               of forfeiture funds. Among our 13 recommenda-
    by NOAA to ensure greater accountability and                 tions were:
    transparency in all phases of the fisheries regulato-        ■   Accurately identify the forfeiture fund, periodically
    ry enforcement process. Many of these recommen-
                                                                     audit it, and provide detailed periodic reporting to
    dations have been accepted and are being
                                                                     NOAA headquarters management, other stake-
    implemented. We also determined that several
                                                                     holders, and budgetary authorities.
    issues required continuing review and investiga-
    tion by our office. Follow-up on these issues result-        ■   Set up appropriate controls and processes for track-
    ed in additional findings provided to stakeholders               ing the receipt and expenditure of collected funds,
    and summarized in this section’s final three entries.            particularly with regard to the use by OLE person-
                                                                     nel of purchase cards linked to accounts containing
                                                                     said funds.
As a result, we engaged KPMG, LLP to examine the
administration and utilization of the AFF by NOAA’s              ■   Enact appropriate policies pertaining to the acqui-
Office for Law Enforcement (OLE) and Office of                       sition, use, and control of government vehicles and
General Counsel for Enforcement and Litigation                       vessels.
(GCEL). We issued a report in April 2010. This
review disclosed serious deficiencies in the manage-             ■   Assess and adjust the management and handling of
ment processes and internal controls of the fund that                collected funds to be consistent with applicable fed-
were reported to NOAA including:                                     eral law and regulation, and with the practices of
                                                                     other government agencies that handle large vol-
■   Forfeiture funds were used to purchase 200 govern-               umes of forfeiture funds.
    ment vehicles and 22 seagoing vessels for OLE,
    which has a staff of approximately 170 enforcement           In September 2010, the Secretary of Commerce
    personnel. OLE policy authorized the leasing                 announced a series of initiatives to reform the AFF,
    of vehicles and vessels but did not specifically             including prohibitions on its use for items such as
    authorize AFF expenditures for vehicle or vessel             employee benefits or bonuses (per current policy),
    purchases. Further, accountability for the assign-           non-operational travel, the procurement of vehicles,
    ment and use of these vehicles and vessels was not           and the purchase of equipment not directly related to
    maintained to accepted government standards for              specific enforcement operations.
    fleet management.


                                                            31
National Oceanic and Atmospheric Administration                        September 2010—Semiannual Report to Congress



                                                                ■
Review of NOAA Fisheries                                            mitigating factors in violations, such as first offense
                                                                    status, should be taken more into account when
Enforcement Programs and
                                                                    assessing penalties and charges;
Operations (OIG-19887-2)
                                                                ■   given frequently changing and complex regulations,
Issued in September 2010, this report presents the                  greater discretion should be exercised, when appro-
results of our examination of 27 specific complaints                priate, in applying the flexibility and leniency pro-
raised by fishermen alleging unfair treatment and                   vided within the regulations, thereby promoting
overzealous enforcement by NOAA’s OLE and                           confidence in the fairness of the system;
GCEL. More than three-fourths of the complaints
we examined concerned the NOAA Northeast                        ■   cases should be resolved in a more timely manner;
Region, with the remainder from the Southeast,                      and
Northwest, and Alaska regions.
                                                                ■   better guidance should be provided to the Office for
Our work was conducted against a backdrop of ini-                   Law Enforcement in the conduct of warrantless
tiatives and reforms to NOAA’s fisheries enforcement                inspections.
program directed by the Under Secretary of
Commerce for Oceans and Atmosphere. As such, the                We also reiterated an earlier recommendation that an
specific complaints we examined involved enforce-               ombudsman or an independent reviewing authority
ment actions and circumstances that occurred before             or both be appointed to resolve issues between
the reforms currently underway. Some issues impli-              NOAA enforcement and industry representatives
cated by particular complaints may have been                    regarding contested regulatory matters. In September
resolved or mitigated by measures taken by NOAA to              2010, the Secretary of Commerce named a Special
date in key areas such as leadership and management;            Master for this purpose. The Secretary will exercise
policy, process, and regulations; workforce structure;          his authority under the Magnuson-Stevens Act in the
and communications and outreach.                                resolution of cases in dispute.

We classified 19 of the 27 complaints we investigated           We are continuing to devote resources and attention
as “Appropriate for Further Review.” For those cases            to NOAA fisheries enforcement matters to ensure
we recommended that NOAA or the Department                      that this important program receives greater inde-
take one or more of the following actions:                      pendent oversight than it has received in the past.
                                                                During the upcoming period, we will be conducting
■   create a process to resolve disputed enforcement            a formal review of NOAA’s progress in implementing
    cases;                                                      all remedial actions recommended since the begin-
                                                                ning of this review process.
■   effect appropriate changes to regulations, policies,
    procedures, or practices; and/or                            Allegations that NOAA Officials
■   address and remedy relevant performance or con-             Shredded Documents During
    duct problems involving NOAA enforcement per-               OIG Fisheries Review
    sonnel raised in these complaints.
                                                                During the course of our original review of fisheries
In addition, we observed that a number of issues                enforcement programs and operations, we received
relating to the arbitrary application of fines and              allegations that several high-ranking OLE officials
charges, particularly within the Northeast Region,              shredded documents. On April 2, 2010, we reported
along with statements made and alleged to have been             to NOAA on the results of our investigation into
made by certain officials within that region, con-              these allegations. Our investigation indicated that 1)
tribute to perceptions of unfairness and favoritism.            documents were shredded while OIG review activi-
                                                                ties were ongoing; 2) the shredding was not reviewed
On these complaints, OIG also observed that:                    by appropriate higher management officials at



                                                           32
September 2010—Semiannual Report to Congress               National Oceanic and Atmospheric Administration



NOAA; 3) the shredding was not conducted in a
manner consistent with federal and Department
records management policy; and 4) the shredding
created an appearance of impropriety in its circum-
stances and timing. Our findings were subsequently
reported to NOAA for review and action.




                                                      33
 NATIONAL TELECOMMUNICATIONS
AND INFORMATION ADMINISTRATION

T
         he National Telecommunications and Information Administration serves as the executive branch’s
         principal advisor to the President on domestic and international telecommunications and information
         policy issues. NTIA manages the federal use of the electromagnetic spectrum; provides grants for
national information and public broadcasting infrastructure projects; and performs telecommunications
research and engineering. It works to enhance citizens’ access to cable television, telephone, and other telecom-
munications services; and educates state and local governments and other entities on ways to use information
technology and telecommunications more effectively.


                                                                Florida PSIC Grant Award No.
      Digital Television Transition and
                                                                2007-GS-H7-0019 (DEN-19886)
  Public Safety Act of 2005 (Title III of P.L.
 109-171, the Deficit Reduction Act of 2005)                    On September 30, 2007, the National Telecom-
                                                                munications and Information Administration
 The Digital Television Transition and Public Safety
                                                                (NTIA) awarded a $42,888,266 Public Safety
 Act of 2005 authorized NTIA, in consultation with
                                                                Interoperable Communications (PSIC) grant to
 the Department of Homeland Security (DHS),
                                                                Florida. The original award period ran from October
 to implement the Public Safety Interoperable
                                                                1, 2007, to September 30, 2010. In November 2009,
 Communications (PSIC) program—a $1 billion
                                                                the President signed an act extending the award peri-
 one-time, formula-based matching grant program
                                                                od to September 30, 2011.
 intended to enable public safety agencies to establish
 interoperable emergency communications systems
                                                                The Florida Division of Emergency Management
 using reallocated radio spectrum. Recipients are
                                                                (FDEM) was designated as the administrative agency
 required to have a minimum 20 percent matching
                                                                to apply for and administer PSIC funds. We audited
 share from nonfederal sources for the acquisition
                                                                costs claimed by FDEM to determine whether the
 and deployment of communications equipment,
                                                                recipient complied with NTIA PSIC grant guidelines
 and management and administration costs.
                                                                and the Department of Homeland Security’s (DHS)
 The Implementing Recommendations of the 9/11                   award terms and conditions.
 Commission Act of 2007 (P.L. 110-53) requires
 OIG to conduct financial audits, over 4 years, of a            Our audit covered the award period of October 1,
 representative sample of at least 25 states or territo-        2007, through December 31, 2009, during which
 ries receiving PSIC grants. The statute also requires          time the FDEM claimed total costs of $16,884,937.
 OIG to annually assess the management of the                   In general, FDEM appears to be on track to complete
 PSIC grant program and report any findings and                 its nine investments before the end of the award, and
 recommendations from that annual assessment to                 has reallocated $750,000 to a different PSIC invest-
 the cognizant congressional committees.                        ment than originally budgeted, thus putting these
                                                                funds to better use.


                                                           35
National Telecommunications and Information Administration              September 2010—Semiannual Report to Congress



However, we did discover some areas of concern:                    New York PSIC Grant Award No.
■   We questioned over $219,000 of matching share                  2007-GS-H7-0039 (DEN-19674)
    costs claimed. FDEM agreed with our finding and
                                                                   On September 30, 2007, NTIA awarded a
    corrected its financial report to reflect the proper
                                                                   $60,734,783 PSIC grant to the state of New York. A
    amount.
                                                                   total of $56,190,483 of the grant required nonfeder-
■   While FDEM generally complied with the terms and               al matching contributions. The $56,190,483 provid-
    conditions of the PSIC grant, it did not fully comply          ed for acquisition and deployment and management
    with cash drawdown requirements. FDEM also                     and administration represents 80 percent of the total
    claimed funds for unallowable management and                   costs of those activities, leaving a minimum nonfed-
    administration costs on behalf of itself and its subre-        eral matching share requirement of $14,047,621.
    cipients. Finally, FDEM made several errors when
                                                                   The governor of New York designated the New York
    drawing down PSIC funds for its subrecipients.
                                                                   State Office of Homeland Security (NYSOHS) as
In our draft report, we made several recommenda-                   New York’s state administrative agency to apply for
tions to the NTIA Assistant Secretary for                          and administer PSIC funds. The original award peri-
Communications and Information and the Federal                     od was from October 1, 2007, to September 30,
Emergency Management Agency’s Grant Programs                       2010; it was later extended by law to September 30,
Directorate:                                                       2011.

■   Require FDEM to monitor cash drawdowns to                      NYSOHS asserts that all 10 of its investments are on
    ensure compliance with PSIC guidelines, place                  schedule to be completed by September 30, 2011.
    funds drawn in an interest-bearing account, and                We found nothing that would lead us to believe the
    return over $15,000 in interest owed to the federal            individual investments would not be completed on
    government.                                                    schedule. In addition, the budgeted matching share
                                                                   of $14,085,571 is sufficient to cover the minimum
■   Direct FDEM to reduce its total PSIC cost claim to             required matching share of $14,047,621.
    remove the unallowable management and adminis-
    tration costs.                                                 NYSOHS claimed total costs of $124,771, including
                                                                   nonfederal matching share expenses of $51,969, as of
■   Direct FDEM to provide evidence that it has                    June 30, 2009. We determined that the costs claimed
    addressed the deficiencies in its systems that                 were reasonable, allowable, and allocable according to
    allowed the improper drawdowns to occur.                       PSIC grant regulations. NYSOHS generally com-
                                                                   plied with PSIC requirements related to financial sta-
In response, FDEM has (1) issued a policy requiring                tus reporting, cash drawdowns, and pass-through of
that subgrantees provide invoices before receiving                 federal funds to local agencies. We have no adverse
cash advances; (2) made plans to remit the interest                findings or recommendations for corrective action.
owed to the government; (3) reduced its cost claim by
removing over $48,000 in unallowable costs from a
subsequent PSIC claim; and (4) implemented new
controls to improve monitoring and prevent further
improper drawdowns. NIST concurred with
FDEM’s stated corrective actions.




                                                              36
September 2010—Semiannual Report to Congress                                        Statistical Data



STATISTICAL DATA
 TABLES                                                                                   Page

 1. Office of Investigations Statistical Highlights for this Period                        37
 2. Audit Resolution and Follow-Up                                                         38
 3. Audit and Evaluation Statistical Highlights for this Period                            38
 4. Audits with Questioned Costs                                                           39
 5. Audits with Recommendations that Funds Be Put to Better Use                            40
 6. Report Types this Period                                                               40
        6-a. Financial Assistance Audits                                                   41
        6-b. Evaluations and Inspections                                                  41-42
 7. Processed Audit Reports                                                                43
        7-a. Processed Audit Reports–Single Audit and Program-Specific Audits              43
 8. Audits Unresolved for More Than 6 Months                                               44




Table 1. Office of Investigations Statistical Highlights for this Period

  Investigative Activities

  Investigations opened                                                             15
  Investigations closed                                                             16
  Arrests                                                                           1
  Indictments/Informations                                                          7
  Convictions                                                                       1
  Fines and other financial recoveries                                          $1,388,222

  Allegations Processed

  Hotline complaints                                                                699
  Total complaints, all sources                                                     922
  Referrals to operating units                                                      593
  Evaluated but not accepted for investigation or referral                          221




                                                       37
Statistical Data                                                 September 2010—Semiannual Report to Congress



Audit Resolution and Follow-Up

The Inspector General Act Amendments of 1988                Department Administrative Order 213-5, Audit
require us to present (in this report) those audits         Resolution and Follow-up, provides procedures for
issued before the beginning of the reporting period         management to request a modification to an
(April 1, 2010) for which no management decision            approved audit action plan or for a financial assis-
had been made by the end of the period (September           tance recipient to appeal an audit resolution determi-
30, 2010). Eight audit reports remain unresolved for        nation. The following table summarizes modification
this reporting period (see page 44).                        and appeal activity during the reporting period.


Table 2. Audit Resolution and Follow-Up

    Report Category                                    Modifications                          Appeals

    Actions pending (April 1, 2010)                             0                                 0
    Submissions                                                 0                                 0
    Decisions                                                   0                                 0
    Actions pending (March 31, 2010)                            0                                 0



Table 3. Audit and Evaluation Statistical Highlights for this Period

    Questioned costs*                                                                             $5,441,680
    Value of audit recommendations that funds be put to better use‡                                   765,552
    Value of audit recommendations agreed to by management                                          4,640,504

* Questioned cost: A cost questioned by OIG because of (1) an alleged violation of a provision of a law, reg-
ulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
(3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.
‡
 Recommendation that funds be put to better use: An OIG recommendation that funds could be used more
efficiently if Commerce management took action to implement and complete the recommendation. These
actions may include (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) with-
drawal of interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by
implementing recommended improvements related to Commerce, a contractor, or a grantee; (5) avoidance of
unnecessary expenditures identified in pre-award reviews of contracts or grant agreements; or (6) any other sav-
ings specifically identified.




                                                       38
September 2010—Semiannual Report to Congress                                                                        Statistical Data



Table 4. Audits with Questioned Costs

                                                                                            Questioned           Unsupported
    Category                                                            Number                Costs                Costs*

    A. Reports for which no management decision‡
       had been made by the beginning of the
       reporting period                                                     12              $21,516,820            $2,600,244
    B. Reports issued during the reporting period                            7                 5,441,680             1,381,739
    Total reports (A+B) requiring a management
    decision during the period1                                             19                26,958,500             3,981,983
    C. Reports for which a management decision
       was made during the reporting period                                  4                    889,311              812,620
           i. Value of disallowed costs                                                           824,504              776,719
           ii. Value of costs not disallowed                                                       64,807               35,901
    D. Reports for which no management decision
       had been made by the end of the
       reporting period                                                     15                26,069,189             3,169,363
1
  Three audit reports included in this table are also included among reports with recommendations that funds be put to better use
(see Table 5). However, the dollar amounts do not overlap.

* Unsupported cost: A cost that is not supported by adequate documentation at the time of the audit.
Questioned costs include unsupported costs.
‡
 Management decision: Management’s evaluation of the findings and recommendations included in the audit
report and the issuance of a final decision by management concerning its response.




                                                                39
Statistical Data                                                            September 2010—Semiannual Report to Congress



Table 5. Audits with Recommendations that Funds Be Put to Better Use

    Report Category                                                                                Number               Value

    A. Reports for which no management decision had been made by the
       beginning of the reporting period                                                                 3           $6,333,761
    B. Reports issued during the reporting period                                                        1               765,552
    Total reports (A+B) requiring a management decision during the period1                               4            7,099,313
    C. Reports for which a management decision was made during the
       reporting period                                                                                  1            3,816,000
            i. Value of recommendations agreed to by management                                                       3,816,000
            ii. Value of recommendations not agreed to by management                                                          0
    D. Reports for which no management decision had been made by
       the end of the reporting period                                                                   3            3,283,313
1
 Three audit reports included in this table are also included among reports with questioned costs (see Table 4). However, the dollar
amounts do not overlap.



Table 6. Report Types this Period

    Type                                                       Number of Reports                             Table Number

    Financial assistance audits                                             4                                  Table 6-a
    Evaluations and inspections                                            11                                  Table 6-b
    Total                                                                  15




                                                                 40
September 2010—Semiannual Report to Congress                                              Statistical Data



Table 6-a. Financial Assistance Audits

                               Report           Date      Funds to Be Put    Amount        Amount
  Report Title                 Number          Issued      to Better Use    Questioned   Unsupported
  Economic Development Administration
  Trade Adjustment
  Assistance for Firms
  Cooperative Agreements       STL-19882    08.18.10                0        $41,195       26,650

  National Institute of Standards and Technology
  California Manufacturing
  Technology Consulting        DEN-18572    07.07.10            0           3,756,780          0

  National Telecommunications and Information Administration
  New York Public
  Safety Interoperable
  Communications Grant         DEN-19674    08.10.10            0               0              0
  Florida Public
  Safety Interoperable
  Communications Grant         DEN-19886       09.24.10      $765,552        232,071           0




Table 6-b. Evaluations and Inspections

                                                              Funds to Be
                                   Report           Date         Put to      Amount        Amount
 Report Title                      Number          Issued      Better Use   Questioned   Unsupported

 Census Bureau
 2010 Census:
 Quarterly Report to
 Congress, May 2010              OIG-19791-4 05.26.10                   0        0             0
 Early Observations Indicate
 That Some Nonresponse
 Follow-up Procedures Are
 Not Being Followed and
 Others Are Lacking             OAE-19893-01 06.11.10                   0        0             0
 Respondent Data
 Safeguards in the Decennial
 Response Integration
 System (DRIS)                    OAE-19888       09.24.10              0        0             0




                                                    41
Statistical Data                                                     September 2010—Semiannual Report to Congress



Table 6-b. Evaluations and Inspections (continued)

                                                                     Funds to Be
                                                Report      Date        Put to      Amount          Amount
    Report Title                                Number     Issued     Better Use   Questioned     Unsupported

    National Oceanic and Atmospheric Administration
    Review of NOAA’s Marine
    Operations Center-Pacific
    Lease Decision                            OAE-19897   06.28.10       0              0               0
    Review of NOAA Fisheries
    Enforcement Asset Forfeiture
    Fund*                                    OIG-19887-1 07.01.10        0              0               0
    Review of NOAA’s Efforts to
    Modernize U.S. Historical
    Climatology Network                       STL-19846   07.29.10       0              0               0
    Final Report – Review of
    NOAA Fisheries Enforcement
    Programs and Operations1   OIG-19887-2 09.23.10                      0              0               0
    National Telecommunications and Information Administration
    NTIA Must Continue to
    Improve its Program
    Management and Pre-Award
    Processes for its Broadband
    Technology Opportunities
    Program                                  ARR-19842-1 04.08.10        0              0               0
    Office of the Secretary
    NIST and NOAA Monitor
    Their Recovery Act Programs,
    but Performance Metrics
    Need to Measure Outcomes                  ARR-19881   05.21.10       0              0               0
    Review of Management of
    Herbert C. Hoover Building
    Renovation                                OAE-19885   08.05.10       0              0               0
    Review of Recovery Act
    Contracts and Grants
    Workforce Staffing and
    Qualifications at the
    Department of Commerce                    ARR-19900   09.10.10       0              0               0
1
    Report issued by the Office of Investigations.




                                                            42
September 2010—Semiannual Report to Congress                                                        Statistical Data



Table 7. Processed Audit Reports–Single Audit and Program-Specific Audits
The Office of Inspector General reviewed and accepted 138 audit reports prepared by independent
public accountants and local, state, and other federal auditors. The reports processed with
questioned costs, recommendations that funds be put to better use, and/or nonfinancial recommendations
are listed in Table 7-a.

     Agency                                                                                          Audits

     Economic Development Administration                                                               51
     International Trade Administration                                                                 1
     Minority Business Development Agency                                                               1
     National Institute of Standards and Technology1                                                   21
     National Oceanic and Atmospheric Administration                                                   17
     National Telecommunications and Information Administration                                        10
     Multi-Agency                                                                                      34
     No Commerce expenditures                                                                           3
     Total                                                                                           138
1
    Includes 14 Advanced Technology Program (ATP) program-specific audits.



Table 7-a. Processed Reports with Audit Findings

                                       Report             Date      Funds to Be Put    Amount        Amount
     Report Title                      Number            Issued      to Better Use    Questioned   Unsupported
     National Institute of Standards & Technology
     TECO-Westinghouse
     Motor Co., TX                    ATL-09999         06.25.10             0         $56,545          0
                                      -10-3679

     National Oceanic and Atmospheric Administration
     Howard University, DC1           ATL-09999         09.24.10             0        1,305,488    1,305,488
                                      -10-3773

     National Telecommunications & Information Administration
     Leadership Conference
     on Civil Rights
     Education Fund, DC               ATL-09999         09.24.10             0          32,093       32,093
                                       -10-3850
     Howard University, DC           ATL-99999          09.24.10             0          17,508       17,508
                                      -10-3773
1
    Counted as one report.

                                                               43
Statistical Data                                         September 2010—Semiannual Report to Congress



Table 8. Audits Unresolved for More Than 6 Months

  Census Bureau                Computer & High Tech Management, Inc.
                               In our September 2005 Semiannual Report to Congress, we reported the
                               results of audits of 2 of the 21 task orders for IT services that Computer &
                               High Tech Management, Inc., was providing to Census. We sought to
                               determine whether the firm had complied with contract terms and
                               conditions and federal regulations and had billed Census for work
                               performed in accordance with specifications of the task order. We found
                               that the firm failed to comply with numerous contract and federal
                               requirements, which caused us to question more than $10.7 million in
                               direct labor and other reimbursable costs. We have suspended audit
                               resolution on this contract audit pursuant to an agreement with Census.

  National Institute of
  Standards and Technology     Manufacturing Extension Partnership Program
                               In our March 2009, September 2009, and March 2010 Semiannual Report
                               to Congress, we discussed our audits of the operations of the five centers
                               located in South Carolina, Florida, Massachusetts, Texas, and Ohio that
                               received cooperative agreements under the NIST MEP program. Our
                               audits questioned over $29 million in costs claimed. Resolution has
                               proven to be complex, and NIST has not provided us with the initial
                               audit resolution proposals. (ATL-18567, ATL-18568, DEN-18135,
                               DEN-18573, DEN-18604)

  National Oceanic and
  Atmospheric Administration   Alaska Eskimo Whaling Commission
                               As reported in our March 2009 Semiannual Report to Congress, a single
                               audit review of this NOAA grant questioned costs totaling $66,353 in
                               expenditures that were not adequately documented. We have suspended
                               audit resolution on this grant audit pursuant to an agreement with
                               NOAA. (ATL-09999-8-3238)




                                                44
September 2010—Semiannual Report to Congress                                                    Reporting Requirements



REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The
requirements are listed below and indexed to the applicable pages of this report.


 Section                      Topic                                                                            Page
 4(a)(2)                      Review of Legislation and Regulations                                             45
 5(a)(1)                      Significant Problems, Abuses, and Deficiencies                                  11-36
 5(a)(2)                      Significant Recommendations for Corrective Action                               11-36
 5(a)(3)                      Prior Significant Recommendations Unimplemented                                   45
 5(a)4                        Matters Referred to Prosecutorial Authorities                                     37
 5(a)(5) and 6(b)(2)          Information or Assistance Refused                                                 45
 5(a)(6)                      Listing of Audit Reports                                                        40-43
 5(a)(7)                      Summary of Significant Reports                                                  11-36
 5(a)(8)                      Audit Reports—Questioned Costs                                                    39
 5(a)(9)                      Audit Reports—Funds to Be Put to Better Use                                       40
 5(a)(10)                     Prior Audit Reports Unresolved                                                    46
 5(a)(11)                     Significant Revised Management Decisions                                          46
 5(a)(12)                     Significant Management Decisions with which OIG Disagreed                         46
 5(a)(13)                     Results of Peer Review                                                            46


Section 4(a)(2): Review of Legislation                          reports for which corrective action has not been com-
and Regulations                                                 pleted. Section 5(b) requires that the Secretary trans-
This section requires the inspector general of each             mit to Congress statistical tables showing the number
agency to review existing and proposed legislation              and value of audit reports for which no final action
and regulations relating to that agency’s programs              has been taken, plus an explanation of the reasons
and operations. Based on this review, the inspector             why recommended action has not occurred, except
general is required to make recommendations in the              when the management decision was made within the
semiannual report concerning the impact of such leg-            preceding year. To include a list of all significant
islation or regulations on the economy and efficiency           unimplemented recommendations in this report
of the management of programs and operations                    would be duplicative. Information on the status of
administered or financed by the agency or on the pre-           any audit recommendations can be obtained through
vention and detection of fraud and abuse in those               OIG’s Office of Audit and Evaluation.
programs and operations. Comments concerning leg-
islative and regulatory initiatives affecting Commerce          Sections 5(a)(5) and 6(b)(2): Information
programs are discussed, as appropriate, in relevant             or Assistance Refused
sections of the report.                                         These sections require a summary of each report to
                                                                the Secretary when access, information, or assistance
Section 5(a)(3): Prior Significant                              has been unreasonably refused or not provided. There
Recommendations Unimplemented                                   were no instances during this semiannual period and
This section requires identification of each significant        no reports to the Secretary.
recommendation described in previous semiannual



                                                           45
Reporting Requirements                                                September 2010—Semiannual Report to Congress



Section 5(a)(10): Prior Audit Reports                            Order 213-5 provides procedures for elevating unre-
Unresolved                                                       solved audit recommendations to higher levels of
This section requires a summary of each audit report             Department and OIG management, including their
issued before the beginning of the reporting period for          consideration by an Audit Resolution Council.
which no management decision has been made by the                During this period no audit issues were referred.
end of the reporting period (including the date and
title of each such report), an explanation of why a deci-        Section 5(a)(13): Results of Peer Review
sion has not been made, and a statement concerning               The most recent peer review of the Office of Audit
the desired timetable for delivering a decision on each          and Evaluation was conducted in 2009 by Federal
such report. There were one NOAA, five NIST, and                 Deposit Insurance Corporation (FDIC)’s Office of
two Census reports more than 6 months old.                       Inspector General. FDIC OIG’s System Review
                                                                 Report of our audit operations is available on our
Section 5(a)(11): Significant Revised                            website. We received a pass rating, the highest avail-
Management Decisions                                             able rating. We have implemented all of FDIC
This section requires an explanation of the reasons              OIG’s recommendations for process and policy
for any significant revision to a management decision            improvements.
made during the reporting period. Department
Administrative Order 213-5, Audit Resolution and                 In 2009, we conducted our latest peer review, which
Follow-up, provides procedures for revising a man-               examined the Small Business Administration (SBA)
agement decision. For financial assistance audits,               OIG’s audit operations. SBA OIG has informed us
OIG must concur with any decision that would                     that   they implemented the recommendation we
change the audit resolution proposal in response to              made in our review.
an appeal by the recipient. There were no appeals this
period.                                                          The most recent peer review of the Office of
                                                                 Investigations was conducted in 2008 by the State
Section 5(a)(12): Significant                                    Department’s Office of Inspector General. We were
Management Decisions with Which                                  found compliant, the highest available finding, with
OIG Disagreed                                                    the quality standards established by the IG commu-
This section requires information concerning any sig-            nity and the Attorney General guidelines. We imple-
nificant management decision with which the inspec-              mented all of State OIG’s suggestions for process and
tor general disagrees. Department Administrative                 policy improvements.




                                                            46
September 2010—Semiannual Report to Congress             Secretarial and CIGIE Awards for Commerce OIG Teams



     SECRETARIAL AND CIGIE AWARDS FOR COMMERCE OIG TEAMS
During this semiannual period, OIG audit, evalua-            The CIGIE Glenn/Roth Award, established to recog-
tion, and investigative teams were recognized for            nize exemplary service to Congress, was presented to
their oversight work by the Secretary of Commerce            the 2010 Census Oversight Team. Three other OIG
and the Council of the Inspectors General on                 teams were honored with CIGIE Awards for
Integrity and Efficiency (CIGIE).                            Excellence: Security Penetration Testing of 2010
                                                             Decennial Census National Data Capture Facilities,
The Secretary’s Gold Medal was presented to the              Audit of the Department of Commerce’s Information
Decennial Census Team for exemplary planning and             Technology Security Workforce Readiness, and IT
coordination of a comprehensive review of the 2010           Security Assessment of NOAA’s Environmental
decennial census that led to real-time improvements          Satellite Processing Center.
in field operations. The Broadband Technology
Opportunities Program (BTOP) Team received a                 In addition, more than 30 OIG staff members were
Silver Medal for effective oversight of BTOP, result-        recognized for their work by Bronze Medals present-
ing in improved broadband infrastructure deploy-             ed by the Inspector General.
ment across America.




                                                        47
Acronyms and Abbreviations                                     September 2010—Semiannual Report to Congress



ACRONYMS AND ABBREVIATIONS

ATP             Advanced Technology Program              NIST            National Institute of Standards and
                                                                         Technology
BTOP            Broadband Technology
                Opportunities Program                    NOAA            National Oceanic and Atmospheric
                                                                         Administration
C&A             certification and accreditation
                                                         NMFS            National Marine Fisheries Service
DRIS            Decennial Response Integration
                System                                   NPOESS          National Polar-orbiting
                                                                         Operational Environmental
EDA             Economic Development
                                                                         Satellite System
                Administration
                                                         NRFU            Nonresponse Follow-up
ESA             Economics and Statistics
                Administration                           NTIA            National Telecommunications and
                                                                         Information Administration
FISMA           Federal Information Security
                Management Act                           OIG             Office of Inspector General
GCEL            Office of General Counsel for            OLE             Office of Law Enforcement
                Enforcement and Litigation                               (NMFS)
                (NOAA)
                                                         OMB             Office of Management and Budget
GSA             General Services Administration
                                                         PBOCS           paper-based operations control
GOES-R          Geostationary Operational                                system
                Environmental Satellite-R Series
                                                         PSIC            Public Safely Interoperable
HCHB            Herbert C. Hoover Building                               Communications
IG              Inspector General                        PSP             Partner Support Program
IT              information technology                   Recovery Act    American Recovery and
                                                                         Reinvestment Act
JPSS            Joint Polar Satellite System
                                                         STRS            Scientific and Technical Research
LCO             local Census office
                                                                         and Services
MEP             Manufacturing Extension
                                                         USHCN           U.S. Historical Climatology
                Partnership
                                                                         Network
NASA            National Aeronautics and Space
                                                         USPTO           United States Patent and
                Administration
                                                                         Trademark Office
NEPA            National Environmental Policy Act




                                                    48
                                 Office of Inspector General

      Budget and Administration                              Inspector General
           Human Resources                                        Deputy
       Information Technology                                Inspector General
                                                             Associate Deputy
                                                             Inspector General
                                                            for Strategic Issues
                                                                Chief of Staff




                          Office of Audit
                          and Evaluation




OIG Main Number                                                         OIG Hotline
Inspector General . . . . . . . . . . . . . . . . . . 202.482.4661      Telephone . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.2495
                                                                                                                                      or 800.424.5197
More Information
                                                                        TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
Visit www.oig.doc.gov to learn more about our activities,
                                                                                                                                         or 800.854.8407
view or download reports and testimony, and sign up for
e-mail alerts. E-mail comments to oigweb@oig.doc.gov.                   E-mail . . . . . . . . . . . . . . . . . . . . . . . . . . . . hotline@oig.doc.gov
